                                                              United States Dep3liment of State
                                                              and the Broadcasting Board of Governors

                                                              Office of Inspector General


                                                                           MAR 2 1 2012



MEMORANDUM

TO: 	          PM /WRA - Thomas Kodiak         :<
                                       _( , _//J' 	   ;;rJ%
                                                       /)      ~     J
                                                                -, - c '     ­
                                        · 7~ 1 .
                                - K1't-ll).                 "' -?-/ ~
FROM: 	        OIG/AUD - Evelyn R.         s~ /         !   .- J'~  ----.::


SUBJECT: 	     Audit of Norwegian People ' s Aid Under Department of State and U.S.
               Agency for International Development Multiple Agreements for Year
               Ended December 31 , 2009 (AUDICG-12-20)

The subject report is attached for your review and action. As the action office, please provide,
within 30 days of the date of this memorandum, a response to the Department of State, Office of
Inspector General (OIG), recommendation included in this memorandum. Your response should
also includ,! information on actions taken or planned for the questioned costs identified in the
report. Actions taken or planned are subject to followup and reporting in accordance with the
attached compliance response information.

The audit was carried out by an independent public accountant at the request of the U.S. Agency
for International Development (US AID) OIG. The report also addresses internal control
weaknesses and other issues of noncompliance with the terms of the grant agreement and
applicable laws and regulations that require corrective action by the grantee. However, the
reported internal control weaknesses for Department grants are similar to those reported for
USAID grants in the subject report. USAID compliance staff have contacted the Norwegian
People ' s Aid and requested action to correct the control deficiencies. OIG, in coordination with
USAID' s OIG, will monitor the corrective actions taken by the Norwegian People' s Aid and
keep you informed of the progress to implement the independent public accountant's
recommendation on internal controls and issues of noncompliance.

        Recommendation L OIG recommends that the Grants Officer, Bureau of Political ­
        Military Affairs, Office of Weapons Removal and Abatement, issue a final determination
        on the allowability of questioned costs of $77,819 for Grant Awards S-PMWRA-09-GR­
        012 ($51 ,740 - unsupported costs), S-PMWRA-09-GR-004 ($11 ,912 - unsupported
        costs), and S-PMWRA-08-GR-013 ($14,167 - ineligible costs). If the costs are
        disallowed, the Grants Officer should ensure that the Norwegian People ' s Aid reimburses
        the Department of State for those costs.

If you have any questions, please contact Richard Astor, Director, Grants and Contracts
Division, at (703) 284-260 I or by email at astorr@state.gov.
Attachments: As stated.

cc:   PMIEX (b) (6)
      PM/WRA (b) (6)
      PM/WRA (b) (6)
      USAID/M/OANCAS      (b) (6)




                                    2
                                     NORWEGIAN PEOPLE’S AID



                    RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                         FOR THE YEAR ENDED DECEMBER 31, 2009




1.   INTRODUCTION TO NORWEGIAN PEOPLE’S AID 


     Norwegian People’s Aid (NPA) is a non-governmental organization (NGO) located in Oslo, Norway.
     NPA is a membership governed organization, which stands on four pillars of equal worth: youth
     work, health and rescue work, socially targeted work and international work. NPA bases much of its
     activity on members’ voluntary work.

     In NPA’s national, international youth, and health and rescue work, the following areas are
     promoted:

           The fight against oppression, poverty and unjust distribution.


           The fight against racism and discrimination. 

           Work for equality and against violence and injustice. 

           Prevention, voluntary engagement and competence building.



     This report is with respect to the U.S. Government funded programs in South Sudan, Angola, and
     Cambodia. The programs were managed by NPA’s field offices located in Nairobi, Kenya, Juba,
     South Sudan, Tbilisi, Georgia, Luanda, Angola, Vientiane, Laos and Phnom Penh, Cambodia.


2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS

     Following is a description of the active grant awards under which NPA incurred expenditures during
     the year ended December 31, 2009:

      Award # FFP-A-00-04-00021-00

        In January of 2004, the United States Agency for International Development, Bureau for
        Democracy, Conflict and Humanitarian Assistance, awarded NPA $9,423,316 under Grant #
        FFP-A-00-04-00021-00, for the period January 1, 2004 through December 31, 2004. The main
        purpose of the grant is to donate agricultural commodities and to pay related support costs for
        emergency food security program in eastern and western corridors of South Sudan.

        There have been thirteen modifications to this grant, which revised the completion date to
        June 30, 2010, and which increased USAID funding to $65,588,100, as follows:

                                                                    Year          US$

               Initial award                                        2004       $ 9,423,316
               Modification No. 1                                   2004         1,094,152
               Modification No. 2                                   2004         5,011,600
               Modification No. 3                                   2005         6,358,276
               Modification No. 4                                   2005         4,401,300
               Modification No. 5                                   2005         4,517,639
               Modification No. 6                                   2006         4,000,000
               Modification No. 7                                   2006         9,443,300
               Modification No. 8                                   2006              -
               Modification No. 9                                   2007              -
               Modification No.10                                   2008         8,880,717
               Modification No.11                                   2009              -
               Modification No.12                                   2009         6,167,100
               Modification No.13                                   2009         6,290,700

               TOTAL FUNDING                                                   $65,588,100

                                                                                                     1
                                  NORWEGIAN PEOPLE’S AID



                  RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                       FOR THE YEAR ENDED DECEMBER 31, 2009




2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

      Award # DFD-G-00-09-00097-00

       In February of 2009, the United States Agency for International Development, Office of
       Acquisition and Assistance, awarded NPA $1,494,996 under Grant # DFD-G-00-09-00097-00
       for the period February 1, 2009 through January 31, 2010. The main purpose of the grant is to
       provide support for a program to strengthen capacity of rural communities in Southern Sudan to
       achieve improved livelihoods. Based upon the objective stated in the award, the project is
       expected to increase agricultural production for targeted households through adoption of
       improved techniques and technologies.

       The following is a summary of the current obligated funding:

                                                                Year             US$

              Initial award                                     2009         $1,494,996

              TOTAL FUNDING                                                  $1,494,996

      Award #S-PMWRA-08-GR-036

       In June of 2008, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement awarded NPA $650,000 under Grant # S-PMWRA-08-GR-
       036 for the period June 1, 2008 through May 31, 2009. The main purpose of the grant is to
       contribute to the operational funding and support of two mobile explosive ordinance disposal
       (EOD) teams and one battle area clearance (BAC) team for twelve months.

       The following is a summary of the current obligated funding:

                                                                Year            US$

              Initial award                                     2008         $ 650,000

              TOTAL FUNDING                                                  $ 650,000

      Award #S-PMWRA-09-GR-012

       In June of 2009, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement awarded NPA $1,000,000 under Grant # S-PMWRA-09-
       GR-012 for the period June 1, 2009 through May 31, 2010. The main purpose of the grant is to
       contribute to the operational funding and support of explosive ordinance disposal (EOD) and
       battle area clearance (BAC) and technical survey.

       The following is a summary of the current obligated funding:

                                                                Year            US$

              Initial award                                     2009         $1,000,000

              TOTAL FUNDING                                                  $1,000,000


                                                                                                   2
                                  NORWEGIAN PEOPLE’S AID



                   RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                        FOR THE YEAR ENDED DECEMBER 31, 2009




2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

      Award # S-PMWRA-09-GR-112

       In June of 2009, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement awarded NPA $400,000 under Grant # S-PMWRA-09-GR-
       112 for the period September 18, 2009 through August 31, 2010. The main purpose of the grant
       is to support “NPA UXO Survey and Clearance in Lao PDR”. The principle objective of this grant
       will be to conduct UXO survey and clearance operations in Sekong Province Lao PDR.

       Based upon the objectives stated in the award, the project is expected to achieve the following
       outcomes:

          Mitigate the risk to community livelihoods in all affected villages within the NPA Area of
           Operations.
          The National Regulatory Authority has a clearer view as to the scale of the ERW problem in
           Sekong Province.

       There has been one modification to this grant, which revised the completion date to
       November 30, 2010. The following is a summary of the current obligated funding:

                                                                Year              US$

              Initial award                                     2009            $400,000

              TOTAL FUNDING                                                     $400,000

      Award #S-PMWRA-09-GR-121

       In June of 2009, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement awarded NPA $168,362 under Grant # S-PMWRA-09-GR-
       121 for the period September 30, 2009 through March 31, 2010. The main purpose of the grant
       is to support the Poti Harbour Survey in Georgia.

       The following is a summary of the current obligated funding:

                                                                Year              US$

              Initial award                                     2009            $168,362

              TOTAL FUNDING                                                     $168,362

      Award # S-PMWRA-08-GR-013

       In 2008, the United States Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement, awarded NPA $1,426,721 under Grant # S-PMWRA-08-GR-
       013, for the period May 1, 2008 through April 30, 2009. The main purpose of the grant is to
       protect victims of conflict and restore access to land and infrastructure through the following:

          Increasing available land for economic and social development. 

          Allow free movement and settlement of populations.


          Contribute to improvement of physical infrastructure and access (roads, bridges, schools, 

           etc) to promote an increased movement and exchange of goods among communities.

                                                                                                     3
                                   NORWEGIAN PEOPLE’S AID



                   RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                        FOR THE YEAR ENDED DECEMBER 31, 2009




2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

      Award # S-PMWRA-08-GR-013 (continued)

       Based upon the objectives stated in the award, the project is expected to achieve the following
       outcomes:

           Release 750,000 sqm of suspect land. 

           Area reduction of 120 suspect hazard areas.


           Updated clearance priorities for 75 impacted communities. 

           Complete 150 spot tasks. 


                                                                Year              US$

               Initial award                                    2008           $1,426,721

               TOTAL FUNDING                                                   $1,426,721

      Award # S-PMWRA-09-GR-004

       In 2009, the United States Department of State, Bureau of Political-Military Affairs, Office of


       Weapons Removal and Abatement, awarded NPA $1,426,721 under Grant # S-PMWRA-09-GR-
       004, for the period May 1, 2009 through April 30, 2010. The main purpose of the grant is to


       protect victims of conflict and restore access to land and infrastructure through the following:



            Increasing available land for economic and social development. 

            Allow free movement and settlement of populations.


            Contribute to improvement of physical infrastructure and access (bridges, schools, etc) to


             promote an increased movement and exchange of goods among communities.

        The following is a summary of the current obligated funding:

                                                                Year              US$

               Initial award                                    2009           $1,426,721

               TOTAL FUNDING                                                   $1,426,721

      Award # S-PMWRA-08-GR-088

       In 2008, U.S. Department of State Bureau of Political-Military Affairs, Office of Weapons
       Removal and Abatement awarded NPA $35,000 under grant number S-PMWRA-08-GR-088 to
       purchase an ambulance to provide emergency medical trauma support for the NPA Rapid
       Response Explosive Ordinance (EOD) and Project RENEW Rapid Response EOD teams that
       are operating in Quang Tri Province, Vietnam, in accord with International Mine Action
       Standards for the period July 1, 2008 to June 30, 2009.

       The following is a summary of the current obligated funding:

                                                                  Year             US$

               Initial award                                     2008              $ 35,000

               TOTAL FUNDING                                                       $ 35,000

                                                                                                       4
                                     NORWEGIAN PEOPLE’S AID



                      RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                           FOR THE YEAR ENDED DECEMBER 31, 2009




2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

      Award # S-PMWRA-08-GR-089

        In 2008, U.S. Department of State Bureau of Political-Military Affairs, Office of Weapons
        Removal and Abatement awarded NPA $99,976 under grant number S-PMWRA-08-GR-089 to
        develop the national capacity of the Cambodian Mine Action and Victims Authority (CMAA) by
        developing the collection, management and dissemination of information, from, with and to
        other mine action stakeholders in the country for the period May 1, 2008 to April 30, 2009.

        The project encompasses the following provisions and objectives:

        		   Maintain and further develop the centralized national database that will efficiently and
              transparently manage the information flow between CMAA and other mine action
              stakeholders.
             Continue with capacity development of national database staff, so they can maintain a
              sustainable routine to process and manage mine action information.
             Capacity building CMAA, CMAC, RCAF and other local operators information and reporting
              systems by implementing compatible formats and information exchange mechanisms.
             Maintaining an information-friendly operations room within CMAA that allows the planning,
              prioritization and monitoring of all Mine Action activities in the country.

        The following is a summary of the current obligated funding:

                                                                  Year             US$

                 Initial award 	                                  2008             $ 99,976

                 TOTAL FUNDING 	                                                   $ 99,976


3.   PERIOD OF AUDIT
     In accordance with the terms of reference for the audit, this report covers the year ended
     December 31, 2009.

4.   OBJECTIVES AND SCOPE OF AUDIT
     Our audit of the fund accountability statements of NPA’s United States Agency for International
     Development (USAID) and United States Department of State (USDOS) awards, for the year
     ended December 31, 2009, was performed in accordance with United States Government Audit
     Standards and the Guidelines for Financial Audits Contracted by Foreign Recipients, in order for us
     to express an opinion on the fund accountability statements. Please refer to point 6 below and
     page I-3 of the accompanying report for our opinion on the fund accountability statements.

5.   PROCEDURES PERFORMED
     As required by United States Government Audit Standards and the Guidelines for Financial Audits
     Contracted by Foreign Recipients, we performed audit procedures to evaluate the effectiveness of
     the design and operation of the internal controls that we considered relevant to preventing or
     detecting material noncompliance with the compliance requirements applicable to each of NPA’s
     U.S. Government awards.

                                                                                                      5
                                     NORWEGIAN PEOPLE’S AID



                    RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                         FOR THE YEAR ENDED DECEMBER 31, 2009




5.   PROCEDURES PERFORMED (Continued)

     Our audit procedures included examining the underlying documentation, which supported the
     financial transactions recorded as expenditures against the U.S. Government awards. Our
     selection of items, which we examined, was based upon a random sample of transactions as well
     as the materiality of certain transactions.


6.   AUDIT RESULTS

     Fund Accountability Statements:

     Our opinion on the fund accountability statements for the year ended December 31, 2009 was
     qualified based upon the amount of the questioned costs. Please refer to page I-3 of the
     accompanying report for our full opinion.

     Questioned Costs:

     Our 2009 audit included both ineligible and unsupported questioned costs. Following is a summary
     of the questioned costs identified during our audit process.

                                                                    Questioned Costs
                                                                 Ineligible Unsupported
           Award # FFP-A-00-04-00021-00                         $     -         $     19,216
           Award # DFD-G-00-09-00097-00                         $     -         $     13,721
           Award # S-PMWRA-08-GR-036                            $     -         $      -
           Award # S-PMWRA-09-GR-012                            $     -         $     51,740
           Award # S-PMWRA-09-GR-121                            $     -         $      -
           Award # S-PMWRA-09-GR-112                            $     -         $      -
           Award # S-PMWRA-09-GR-004                            $     -         $     11,912
           Award # S-PMWRA-08-GR-013                            $   14,167      $      -
           Award # S-PMWRA-08-GR-088                            $     -         $      -
           Award # S-PMWRA-08-GR-089                            $     -         $      -

     Report on Internal Control (Please refer to Sections II and IV of our report):

     We noted the following material weaknesses:

         Noncompliance with established procurement policies (Sudan).


         Significant journal entries which were not properly supported (Sudan).


         Timesheets were incomplete, not signed, not approved and there were instances where time


          charged to the awards did not correspond to hours indicated on timesheets (Sudan, Angola).
         Noncompliance with established sub-recipient monitoring policies (Sudan).
         Cash management: bank reconciliations were not properly completed, reviewed or approved
          and petty cash counts were not properly conducted or accurate (Sudan).


     We noted the following significant deficiencies:

         Inventory was not properly controlled (Sudan).


         Personnel files were incomplete (Sudan). 

         Financial records were not properly filed and difficult to locate (Sudan).


         Numerous instances of payment vouchers not properly signed and dated (Sudan).



                                                                                                   6
                                    NORWEGIAN PEOPLE’S AID



                    RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                         FOR THE YEAR ENDED DECEMBER 31, 2009




6.   AUDIT RESULTS (Continued)

     Report on Internal Controls (Please refer to Sections II and IV of our report) 

     (continued): 


     We noted the following other areas of concern:

         Reconciliation and reporting of employee travel advances (Sudan).


         Numerous instances where similar transactions were coded differently in the accounting


          system (Sudan).


         Quarterly financial reports not submitted on a timely basis (Sudan). 

         Instances of bank reconciliations not being signed by reviewer (Angola). 

         Conflict-of-interest statements (Angola, Laos, Georgia).


         Request of funds (Angola).


         Whistleblower policy (Angola).


         Timely remittance of tax payments (Laos).


         Travel documentation missing (Georgia). 


     Report on Compliance (please refer to Sections III and IV of our report)

     We noted the following material instances of non-compliance:

         Noncompliance with established procurement policies (Sudan).


         Noncompliance with established sub-recipient monitoring policies (Sudan). 



7.   INDIRECT COST RATES

     Indirect costs were charged to U.S. Government awards based upon NPA’s actual rate of 14.15%
     for the year ended December 31, 2009. Please refer to Section VI of the accompanying report for
     the calculation of NPA’s 2009 indirect rate audited by other auditors.


8.   COST-SHARING

     Based on our review, nothing came to our attention that caused us to believe that NPA did not fairly
     present the Cost-Sharing Schedule. Please refer to Section V of our report for the full Cost-Sharing
     Schedule.




                                                                                                       7
   NORWEGIAN PEOPLE’S AID
UNITED STATES GOVERNMENT PROGRAMS

                       AUDIT REPORT

                     FEDERAL AWARD
             COMPLIANCE EXAMINATION

             AS OF DECEMBER 31, 2009
                                    NORWEGIAN PEOPLE’S AID



                                              CONTENTS



                                                                                  PAGE NO.


I.     Financial Section                                                            I (1-22)


II.    Independent Auditors' Report on Internal Control                              II (1-2)


III.   Independent Auditors' Report on Compliance                                   III (1-3)


IV.    Independent Auditors' Report on Findings and Recommendations                IV (1-17)


V.     Independent Auditors' Review Report on the Cost-Sharing Schedule              V (1-5)


VI.    Report on Indirect Rate Calculation for the Year Ended December 31, 2009     VI (1-5)
                 FINANCIAL STATEMENTS

   NORWEGIAN PEOPLE’S AID
UNITED STATES GOVERNMENT PROGRAMS

  FOR THE YEAR ENDED DECEMBER 31, 2009




                                    I-1
                                    NORWEGIAN PEOPLE’S AID



                                            CONTENTS


                                                                               PAGE NO.



INDEPENDENT AUDITORS' REPORT                                                       I-3 


EXHIBIT A - Summary Fund Accountability Statement for the Year Ended


            December 31, 2009                                                      I-4



EXHIBIT B- Fund Accountability Statement for Grant # FFP-A-00-04-00021-00


           for the Year Ended December 31, 2009                                    I-5



EXHIBIT C - Fund Accountability Statement for Grant # DFD-G-00-09-00097-00


            for the Year Ended December 31, 2009                                   I-6



EXHIBIT D - Fund Accountability Statement for Grant # DFD-G-00-06-00070-00


            for the Year Ended December 31, 2009                                   I-7



EXHIBIT E - Fund Accountability Statement for Grant # DFD-G-00-08-00053-00


            for the Year Ended December 31, 2009                                   I-8



EXHIBIT F - Fund Accountability Statement for Grant # S-PMWRA-08-GR-036


            for the Year Ended December 31, 2009                                   I-9



EXHIBIT G - Fund Accountability Statement for Grant # S-PMWRA-09-GR-012


            for the Year Ended December 31, 2009                                  I-10



EXHIBIT H - Fund Accountability Statement for Grant # S-PMWRA-09-GR-112


            for the Year Ended December 31, 2009                                  I-11



EXHIBIT I - Fund Accountability Statement for Grant # S-PMWRA-09-GR-121


            for the Year Ended December 31, 2009                                  I-12



EXHIBIT J - Fund Accountability Statement for Grant # S-PMWRA-08-GR-013


            for the Year Ended December 31, 2009                                  I-13



EXHIBIT K - Fund Accountability Statement for Grant # S-PMWRA-09-GR-004


            for the Year Ended December 31, 2009                                  I-14 


EXHIBIT L - Fund Accountability Statement for Grant # S-PMWRA-08-GR-088


            for the Year Ended December 31, 2009                                  I-15 


EXHIBIT M - Fund Accountability Statement for Grant # S-PMWRA-08-GR-089


            for the Year Ended December 31, 2009                                  I-16 


EXHIBIT N - Fund Accountability Statement for Grant # S-PMWRA-07-GR-077


            for the Year Ended December 31, 2009                                  1-17 


EXHIBIT O - Fund Accountability Statement for Grant # S-PMWRA-06-GR-056


            for the Year Ended December 31, 2009                                  I-18 


EXHIBIT P - Fund Accountability Statement for Grant # DFD-G-00-05-00021-00


            for the Year Ended December 31, 2009                                  I-19 


NOTES TO FINANCIAL STATEMENTS                                                   I (20-22)


                                                                                           I-2
                            GELMAN, ROSENBERG & FREEDMAN
                               CERTIFIED PUBLIC ACCOUNTANTS


                                  INDEPENDENT AUDITORS' REPORT


To the Board of Directors
Norwegian People’s Aid
Oslo, Norway

        We have audited the accompanying fund accountability statements of Norwegian People’s Aid
(NPA) for the year ended December 31, 2009. These fund accountability statements are the responsibility
of NPA’s management. Our responsibility is to express an opinion on these statements based on our audit.
         We conducted our audit of the fund accountability statements in accordance with U.S. Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the fund accountability
statements are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the fund accountability statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall statement presentation. We believe that our audit provides a reasonable basis for our
opinion.
          The results of our tests disclosed the following questioned costs as detailed in the fund
accountability statements and in Note 2 to the fund accountability statements: (1) $14,167 of costs that are
explicitly questioned because they are either outside the dates of the awards or were not in compliance with
the requirements stipulated in the grant awards for such costs; and (2) $96,589 of costs which were not
supported with adequate documentation
        In our opinion, except for the effects of the questioned costs discussed in the preceding paragraph,
the fund accountability statements referred to above present fairly, in all material respects, costs incurred
and reimbursed by the United States Government funding agencies for the year ended December 31, 2009,
in accordance with the terms of the agreements and in conformity with the basis of accounting described in
Note 1.
         In accordance with U.S. Government Auditing Standards, we have also issued our reports dated
November 16, 2011, on our consideration of NPA’s internal control over financial reporting and our tests of
compliance with certain provisions of laws and regulations. Those reports are an integral part of an audit
performed in accordance with U.S. Government Auditing Standards and should be read in conjunction with
this Independent Auditors’ Report in considering the results of our audit.
                                  ________________________________

         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




November 16, 2011

                    4550 MONTGOMERY AVENUE, SUITE 650 NORTH, BETHESDA, MARYLAND 20814
                           (301) 951-9090 • FAX (301) 951-3570 • WWW.GRFCPA.COM



                 MEMBER OF CPAMERICA INTERNATIONAL, AN AFFILIATE OF HORWATH INTERNATIONAL
    MEMBER OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS’ PRIVATE COMPANIES PRACTICE SECTION

                                                                                                           I-3
                                                                                       EXHIBIT A



                                   NORWEGIAN PEOPLE’S AID 


                        SUMMARY FUND ACCOUNTABILITY STATEMENT

                          FOR THE YEAR ENDED DECEMBER 31, 2009




                                                        Questioned Costs (Note 2)
                                          Actual       Ineligible  Unsupported        Eligible
CASH RECEIPTS
  Award # FFP-A-00-04-00021-00          $(2,793,600)    $   -            $     -      $(2,793,600)
  Award # DFD-G-00-09-00097-00           (1,000,000)        -                  -       (1,000,000)
  Award # S-PMWRA-08-GR-036                (350,000)        -                  -         (350,000)
  Award # S-PMWRA-09-GR-121                 (50,000)        -                  -          (50,000)
  Award # S-PMWRA-09-GR-013                (676,721)        -                  -         (676,721)
  Award # S-PMWRA-08-GR-004              (1,176,721)        -                  -       (1,176,721)
  Award # S-PMWRA-08-GR-088                 (35,000)        -                  -          (35,000)
  Award # S-PMWRA-08-GR-089                 (83,769)        -                  -          (83,769)

        Total cash receipts              (6,165,811)        -                  -       (6,165,811)

AGRICULTURAL COMMODITIES

  Award # FFP-A-00-04-00021-00           (1,175,800)        -                  -       (1,175,800)

COSTS INCURRED

  Award # FFP-A-00-04-00021-00           6,644,872          -                19,216     6,625,656
  Award # DFD-G-00-09-00097-00           1,471,440          -                13,721     1,457,719
  Award # S-PMWRA-08-GR-036                 79,101          -                  -           79,101
  Award # S-PMWRA-09-GR-012                360,919          -                51,740       309,179
  Award # S-PMWRA-09-GR-112                 26,087          -                  -           26,087
  Award # S-PMWRA-09-GR-121                 56,424          -                  -           56,424
  Award # S-PMWRA-08-GR-013                426,875       14,167                -          412,708
  Award # S-PMWRA-09-GR-004                795,087          -                11,912       783,175
  Award # S-PMWRA-08-GR-088                 19,060          -                  -           19,060
  Award # S-PMWRA-08-GR-089                 49,361          -                  -           49,361

        Total costs incurred             9,929,226       14,167              96,589     9,818,470

Excess of expenditures over receipts                                                    2,476,859

Balance due from (to) U.S. Government
  at beginning of year                                                                  3,031,357

BALANCE DUE FROM (TO) U.S. GOVERNMENT
  AT END OF YEAR                                                                      $ 5,508,216




                                                                                                 I-4
                                                                                                             EXHIBIT B



                                            NORWEGIAN PEOPLE’S AID 


                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # FFP-A-00-04-00021-00

                            FOR THE YEAR ENDED DECEMBER 31, 2009 




UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

Grant # FFP-A-00-04-00021-00 - Sudan

Period of Performance: January 1, 2004 to June 30, 2010

Total Estimated Amount Awarded: $65,588,100

Total Obligated Amount (including value of agricultural commodities and
inland freight): $34,361,639

      Agricultural Commodities:         $18,560,661

      Inland Freight:                   $12,665,800

      ITSH and 202e:                    $34,361,639

                                                                                                          Agricultural
Total Cost-Sharing Amount: $4,280,422                                                       Cash         Commodities

                                                                                                  $
Balance Due from(to) USAID at December 31, 2008                                           2,758,935      $          -

   Receipts:
    Cash                                                                                  (2,793,600)             -
    Value of Agricultural Commodities and Ocean Freight                                          -           (1,175,800)

   Eligible Expenditures:
     Agricultural Commodities                                                                   -             1,175,800
     Inland Freight                                                                         994,724               -
     ITSH and 202e                                                                        4,455,132               -

                                                                                                  $
BALANCE DUE FROM(TO) USAID AT DECEMBER 31, 2009                                           5,415,191      $          -



                                         Questioned Costs
                                               (Note 2)          Total        2008       Total
                          Actual      Ineligible Unsupported    Eligible    Cumulative Cumulative       Budget          Variance
Agricultural Commodities:
 Commodity Value          $ 654,200     $   -        $ -        $ 654,200   $ 9,520,200 $10,174,400 $11,551,561 $(1,377,161)
 Ocean Freight              521,600         -          -          521,600     5,792,800   6,314,400   7,009,100    (694,700)

                         1,175,800          -           -       1,175,800    15,313,000   16,488,800   18,560,661       (2,071,861)

Inland Freight             994,724          -           -         994,724     9,409,738   10,404,462   12,665,800       (2,261,338)

Internal Transport,
  Storage and
  Handling (ITSH)        3,798,905          -          19,216   3,779,689    23,649,047   27,428,736   30,381,337       (2,952,601)
Rehabilitation of
  Rural Access
  Roads (202e)             675,443          -           -         675,443     2,440,040    3,115,483    3,980,302        (864,819)

                         4,474,348          -          19,216   4,455,132    26,089,087   30,544,219   34,361,639       (3,817,420)

TOTAL                   $6,644,872      $   -        $19,216 $6,625,656 $50,811,825 $57,437,481 $65,588,100 $(8,150,619)

                                See accompanying notes to financial statements.

                                                                                                                           I-5
                                                                                                      EXHIBIT C



                                       NORWEGIAN PEOPLE’S AID

            FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-09-00097-00
                       FOR THE YEAR ENDED DECEMBER 31, 2009



 UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

 Grant # DFD-G-00-09-00097-00 - Sudan

 Period of Performance: February 1, 2009 to January 31, 2010

 Total Amount Awarded: $1,494,996

 Total Obligated Amount: $1,494,996


 Balance Due from(to) USAID at December 31, 2008                                                  $       -

    Receipts                                                                                       (1,000,000)

    Eligible Expenditures                                                                             1,457,719

 BALANCE DUE FROM(TO) USAID AT DECEMBER 31, 2009                                                  $    457,719



                                    Questioned Costs (Note 2)     Total       Total
                        Actual      Ineligible Unsupported       Eligible   Cumulative   Budget        Variance
Agriculture and Food
 Security              $1,471,440     $   -       $13,721       $1,457,719 $1,457,719 $1,494,996        $(37,277)




                             See accompanying notes to financial statements.

                                                                                                              I-6
                                                                             EXHIBIT D



                                     NORWEGIAN PEOPLE’S AID 


          FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-06-00070-00

                     FOR THE YEAR ENDED DECEMBER 31, 2009




UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

Grant # DFD-G-00-06-00070-00 - Sudan

Period of Performance: January 1, 2006 to April 30, 2007

Total Amount Awarded: $6,509,880

Total Obligated Amount: $6,509,880


Balance Due from(to) USAID at December 31, 2008                               $(29,414)

  Receipts                                                                        -

  Eligible Expenditures                                                           -

BALANCE DUE FROM(TO) USAID AT DECEMBER 31, 2009                               $(29,414)




                           See accompanying notes to financial statements.

                                                                                      I-7
                                                                            EXHIBIT E



                                     NORWEGIAN PEOPLE’S AID 


          FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-08-00053-00

                     FOR THE YEAR ENDED DECEMBER 31, 2009




UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

Grant # DFD-G-00-08-00053-00 - Sudan

Period of Performance: January 1, 2008 to December 31, 2008

Total Amount Awarded: $2,997,755

Total Obligated Amount: $2,997,755


Balance Due from(to) USAID at December 31, 2008                             $(17,083)

  Receipts                                                                       -

  Eligible Expenditures                                                          -

BALANCE DUE FROM(TO) USAID AT DECEMBER 31, 2009                             $(17,083)




                          See accompanying notes to financial statements.

                                                                                     I-8
                                                                                                        EXHIBIT F



                                         NORWEGIAN PEOPLE’S AID

             FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-08-GR-036
                        FOR THE YEAR ENDED DECEMBER 31, 2009



 UNITED STATES DEPARTMENT OF STATE

 Grant # S-PMWRA-08-GR-036 - Sudan

 Period of Performance: June 1, 2008 to May 31, 2009

 Total Amount Awarded: $650,000

 Total Obligated Amount: $650,000


 Balance Due from(to) USDOS at December 31, 2008                                                         $ 279,219

    Receipts                                                                                                 (350,000)

    Eligible Expenditures                                                                                      79,101

 BALANCE DUE FROM(TO) USDOS AT DECEMBER 31, 2009                                                         $      8,320



                                   Questioned Costs (Note 2)    Total       2008         Total
                         Actual    Ineligible  Unsupported     Eligible   Cumulative   Cumulative   Budget     Variance

Support Two Mobile
 (EOD) Teams and One
 Battle Area Clearance
 (BAC) Team              $79,101     $   -         $   -       $79,101     $579,219     $658,320    $650,000    $ 8,320




                              See accompanying notes to financial statements.

                                                                                                                  I-9
                                                                                              EXHIBIT G



                                        NORWEGIAN PEOPLE’S AID 


           FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-09-GR-012

                      FOR THE YEAR ENDED DECEMBER 31, 2009




UNITED STATES DEPARTMENT OF STATE

Grant # S-PMWRA-09-GR-012 - Sudan

Period of Performance: June 1, 2009 to May 31, 2010

Total Amount Awarded: $1,000,000

Total Obligated Amount: $1,000,000


Balance Due from(to) USDOS at December 31, 2008                                                 $   -

   Receipts                                                                                         -

   Eligible Expenditures                                                                         309,179

BALANCE DUE FROM(TO) USDOS AT DECEMBER 31, 2009                                                 $309,179



                                      Questioned Costs (Note 2) Total   Total
                            Actual    Ineligible Unsupported Eligible Cumulative     Budget     Variance
EOD/BAC Clearance and
 Technical Survey –
 Sudan                     $360,919     $   -     $ 51,740    $309,179   $309,179   $1,000,000 $(690,821)




                              See accompanying notes to financial statements.

                                                                                                        I-10
                                                                                              EXHIBIT H



                                     NORWEGIAN PEOPLE’S AID 


             FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-09-GR-112

                        FOR THE YEAR ENDED DECEMBER 31, 2009




 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-09-GR-112 - Laos

 Period of Performance: September 18, 2009 to November 30, 2010

 Total Amount Awarded: $ 400,000

 Total Obligated Amount: $ 400,000


 Balance Due from(to) USDOS at December 31, 2008                                                $ -

    Receipts                                                                                       -

    Eligible Expenditures                                                                        26,087

 BALANCE DUE FROM(TO) USDOS AT DECEMBER 31, 2009                                                $26,087



                                 Questioned Costs
                                       (Note 2)           Total        Total
                  Actual     Ineligible   Unsupported    Eligible    Cumulative    Budget     Variance

Personnel          $16,084     $ -        $    -          $16,084        $16,084   $136,200    $(120,116)
Equipment              -         -             -             -              -        92,000      (92,000)
Supplies               -         -             -             -              -        54,920      (54,920)
Other                6,769       -             -            6,769          6,769     61,500      (54,731)

Total Direct        22,853       -             -           22,853         22,853    344,620     (321,767)
Indirect Costs
  (Note 3)           3,234       -             -             3,234         3,234     55,380       52,146

TOTAL              $26,087    $ -         $    -          $26,087        $26,087   $400,000    $(269,621)




                             See accompanying notes to financial statements.

                                                                                                       I-11
                                                                                                        EXHIBIT I



                                       NORWEGIAN PEOPLE’S AID 


              FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-09-GR-121

                         FOR THE YEAR ENDED DECEMBER 31, 2009




 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-09-GR-121 - Georgia



 Period of Performance: September 30, 2009 to March 31, 2010



 Total Amount Awarded: $168,362



 Total Obligated Amount: $168,362




 Balance Due from(to) USDOS at December 31, 2008                                                        $     -

    Receipts                                                                                             (50,000)

    Eligible Expenditures                                                                                   56,424

 BALANCE DUE FROM(TO) USDOS AT DECEMBER 31, 2009                                                        $ 6,424



                                         Questioned Costs
                                               (Note 2)         Total          Total
                            Actual    Ineligible Unsupported   Eligible      Cumulative      Budget         Variance

Personnel                   $ -        $ -        $    -        $      -        $      -     $ 43,475    $ (43,475)
Travel                       12,457      -             -            12,457          12,457     15,000       (2,543)
Equipment                    33,922      -             -            33,922          33,922     69,600      (35,678)
Supplies                        800      -             -               800             800      4,350       (3,550)
Running Costs/Other           2,251      -             -             2,251           2,251     12,715      (10,464)

Total Direct                 49,430       -            -            49,430          49,430    145,140        (95,710)
Indirect Costs (Note 3)       6,994       -            -             6,994           6,994     23,222        (16,228)

TOTAL                       $56,424    $ -        $    -        $56,424         $56,424      $168,362 $(111,938)




                              See accompanying notes to financial statements.

                                                                                                                  I-12
                                                                                                        EXHIBIT J



                                          NORWEGIAN PEOPLE’S AID 


                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-08-GR-013

                            FOR THE YEAR ENDED DECEMBER 31, 2009




 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-08-GR-013 - Angola

 Period of Performance: May 1, 2008 to April 30, 2009

 Total Amount Awarded: $1,426,721

 Total Obligated Amount: $1,426,721


 Balance Due from(to) USDOS at December 31, 2008                                                        $ 242,298

     Receipts                                                                                              (676,721)

     Eligible Expenditures                                                                                 412,708

 BALANCE DUE FROM(TO) USDOS AT DECEMBER 31, 2009                                                        $ (21,715)



                                 Questioned Costs
                                      (Note 2)           Total       2008         Total
                   Actual    Ineligible   Unsupported   Eligible   Cumulative   Cumulative     Budget       Variance

Personnel         $280,086     $ -       $     -        $280,086     $623,064    $ 903,150    $ 874,625      $ 28,525
Supplies             9,545        -            -           9,545       75,219       84,764       83,131         1,633
Other               84,329      12,411         -          71,918      147,177      219,095      261,664       (42,569)

Total Direct       373,960      12,411         -         361,549      845,460     1,207,009    1,219,420      (12,411)
Indirect Costs
  (Note 3)          52,915       1,756         -          51,159      146,838      197,997      207,301        (9,304)

TOTAL             $426,875     $14,167   $     -        $412,708     $992,298    $1,405,006   $1,426,721    $(21,715)




                                 See accompanying notes to financial statements.

                                                                                                                 I-13
                                                                                                       EXHIBIT K



                                         NORWEGIAN PEOPLE’S AID 


              FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-09-GR-004


                         FOR THE YEAR ENDED DECEMBER 31, 2009





 UNITED STATES DEPARTMENT OF STATE

 Award #S-PMWRA-09-GR-004 - Angola

 Period of Performance: May 1, 2009 to April 30, 2010

 Total Amount Awarded: $1,426,721

 Total Obligated Amount: $1,426,721


 Balance Due from(to) USDOS at December 31, 2008                                                   $       -

    Receipts                                                                                       (1,176,721)

    Eligible Expenditures                                                                               783,175

 BALANCE DUE FROM(TO) USDOS AT DECEMBER 31, 2009                                                $ (393,546)



                                        Questioned Costs
                                              (Note 2)         Total       Total
                           Actual    Ineligible Unsupported   Eligible   Cumulative    Budget          Variance

Personnel                 $534,405   $   -          $10,435 $523,970      $523,970    $ 873,011        $(349,041)
Supplies                    41,747       -              -     41,747        41,747      102,486          (60,739)
Other                      120,376       -              -    120,376       120,376      254,434         (134,058)

Total Direct               696,528       -           10,435   686,093       686,093    1,229,931        (543,838)
Indirect Costs (Note 3)     98,559       -            1,477    97,082        97,082      196,790         (99,708)

TOTAL                     $795,097   $   -          $11,912 $783,175      $783,175    $1,426,721       $(643,546)




                               See accompanying notes to financial statements.

                                                                                                               I-14
                                                                                                         EXHIBIT L



                                         NORWEGIAN PEOPLE’S AID



              FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-08-GR-088


                         FOR THE YEAR ENDED DECEMBER 31, 2009





UNITED STATES DEPARTMENT OF STATE

Award #S-PMWRA-08-GR-088 - Cambodia

Period of Performance: July 1, 2008 to June 30, 2009

Total Amount Awarded: $35,000

Total Obligated Amount: $35,000


Balance Due from(to) USDOS at December 31, 2008                                                            $ 15,940

   Receipts                                                                                                 (35,000)

   Eligible Expenditures                                                                                      19,060

BALANCE DUE FROM(TO) USDOS AT DECEMBER 31, 2009                                                           $        -



                                     Questioned Costs
                                          (Note 2)         Total       2008          Total
                        Actual   Ineligible Unsupported   Eligible   Cumulative    Cumulative   Budget     Variance

Purchase of Ambulance   $19,060 $    -      $    -        $19,060        $15,940      $35,000   $35,000 $      -




                             See accompanying notes to financial statements.

                                                                                                                       I-15
                                                                                                         EXHIBIT M



                                          NORWEGIAN PEOPLE’S AID



                FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-08-GR-089


                           FOR THE YEAR ENDED DECEMBER 31, 2009





UNITED STATES DEPARTMENT OF STATE

Award #S-PMWRA-08-GR-089 - Cambodia

Period of Performance: May 1, 2008 to April 30, 2009

Total Amount Awarded: $99,976

Total Obligated Amount: $99,976


Balance Due from(to) USDOS at December 31, 2008                                                               $ 48,928

   Receipts                                                                                                    (83,769)

   Eligible Expenditures                                                                                        49,361

BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2009                                                              $ 14,520



                                         Questioned Costs
                                               (Note 2)         Total       2008         Total
                           Actual     Ineligible Unsupported   Eligible   Cumulative   Cumulative   Budget     Variance

Personnel                  $36,719     $ -       $    -        $36,719       $23,948      $60,667   $60,134     $ 533
Equipment                        4       -            -              4        15,976       15,980    15,350        630
Supplies                       687       -            -            687         1,138        1,825     2,100       (275)
Running Costs/Other          5,832       -            -          5,832         1,876        7,708     8,604       (896)

Total Direct                 43,242       -           -         43,242        42,938       86,180    86,188          (8)
Indirect Costs (Note 3)       6,119       -           -          6,119         5,990       12,109    13,788      (1,679)

TOTAL                      $49,361     $ -       $     -       $49,361       $48,928      $98,289   $99,976     $(1,687)




                               See accompanying notes to financial statements.

                                                                                                                   I-16
                                                                              EXHIBIT N



                                     NORWEGIAN PEOPLE’S AID



              FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-07-GR-077


                         FOR THE YEAR ENDED DECEMBER 31, 2009





UNITED STATES DEPARTMENT OF STATE

Award #S-PMWRA-07-GR-077 - Cambodia

Period of Performance: April 27, 2007 to April 30, 2008

Total Amount Awarded: $99,914

Total Obligated Amount: $99,914

Cost Share Required: $132,135


Balance Due from(to) USDOS at December 31, 2008                                  $(5,951)

   Receipts                                                                         -

   Eligible Expenditures                                                            -

BALANCE DUE FROM(TO) USDOS AT DECEMBER 31, 2009                                  $(5,951)




                            See accompanying notes to financial statements.

                                                                                        I-17
                                                                              EXHIBIT O



                                    NORWEGIAN PEOPLE’S AID



             FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-06-GR-056


                        FOR THE YEAR ENDED DECEMBER 31, 2009





UNITED STATES DEPARTMENT OF STATE

Award #S-PMWRA-06-GR-056 - Cambodia

Period of Performance: April 1, 2006 to March 31, 2008

Total Amount Awarded: $38,404

Total Obligated Amount: $38,404


Balance Due from USDOS at December 31, 2008                                       $2,067

  Receipts                                                                          -

  Eligible Expenditures                                                             -

BALANCE DUE FROM USDOS AT DECEMBER 31, 2009                                       $2,067




                            See accompanying notes to financial statements.

                                                                                    I-18
                                                                            EXHIBIT P



                                     NORWEGIAN PEOPLE’S AID 


          FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-05-00021-00

                     FOR THE YEAR ENDED DECEMBER 31, 2009




UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

Award # DFD-G-00-05-00021-00 - Sudan

Period of Performance: January 1, 2005 to September 30, 2006

Total Amount Awarded: $7,497,238

Total Obligated Amount: $7,497,238

Total Cost Share: $1,459,387




Balance Due from(to) USAID at December 31, 2008                             $(263,582)

  Receipts                                                                       -

  Eligible Expenditures                                                          -

BALANCE DUE FROM(TO) USAID AT DECEMBER 31, 2009                             $(263,582)




                          See accompanying notes to financial statements.

                                                                                     I-19
                                  NOTES TO FINANCIAL STATEMENTS 

                                        DECEMBER 31, 2009 




1.    SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES AND GENERAL INFORMATION

      Organization -

       Norwegian People’s Aid (NPA) is a non-governmental organization (NGO) located in Oslo,
       Norway. NPA is a membership governed organization, which stands on four pillars of equal
       worth: youth work, health and rescue work, socially targeted work and international work. NPA
       bases much of its activity on members’ voluntary work.

       In NPA’s national, international youth, and health and rescue work, the following areas are
       promoted:

             The fight against oppression, poverty and unjust distribution.


             The fight against racism and discrimination. 

             Work for equality and against violence and injustice. 

             Prevention, voluntary engagement and competence building.



      Basis of presentation -

       The accompanying fund accountability statements have been prepared on the accrual basis of
       accounting and present only the transactions of NPA’s program grants and contracts with the
       United States Government. Accordingly, the fund accountability statements are not intended to
       present fairly all transactions of NPA taken as a whole.

      Property and equipment -

       NPA’s policy is to expense all property and equipment acquired with U.S. Government funding and
       charge it to the corresponding grant award. Title to the property and equipment vests to NPA in
       accordance with the standard provisions.

     Currency valuation -

       NPA’s financial transactions are recorded using the Norwegian Kroner. NPA’s policy is to convert all
       monthly revenue and expense transactions incurred in foreign currencies using a weighted
       average; and to convert all foreign currency assets and liabilities at the end of the month using the
       spot rate on the last day of the month between the Kroner and the foreign currencies.

       For purposes of the accompanying fund accountability statements, all revenue and expense
       transactions have been converted to the United States Dollar using a monthly weighted average
       methodology between the Kroner and the Dollar.

     Fund balance -

       The amounts reported in the accompanying fund accountability statements as amounts due from
       (to) the United Stated Agency for International Development (USAID) and Department of State
       (USDOS) represent the fund balance of each respective grant award as of December 31, 2009.


2.    INELIGIBLE AND UNSUPPORTED COSTS

      Ineligible costs consist of expenses included in grant expenditures that did not meet certain criteria
      stipulated in the provisions of the grant awards.




                                                                                                        I-20
                                    NORWEGIAN PEOPLE’S AID



                               NOTES TO FINANCIAL STATEMENTS 

                                     DECEMBER 31, 2009 




2.   INELIGIBLE AND UNSUPPORTED COSTS (Continued)

     Unsupported costs consist of expenses included in grant expenditures that did not have appropriate
     documentation to support the expense. Following is a summary, by grant, of the ineligible and
     unsupported costs:

                                       FFP-A-00-04-00021-00

            Unsupported:
              Personnel                                                         $19,216


                                      DFD-G-00-09-00097-00

            Unsupported:
              Personnel                                                         $12,021
              Indirect (Note 3)                                                   1,700

                                                                                $13,721


                                       S-PMWRA-09-GR-012

            Unsupported:
              Purchase of vehicle                                               $45,326
              Indirect (Note 3)                                                   6,414

                                                                                $51,740

                                       S-PMWRA-08-GR-013

            Ineligible:
               Other                                                            $12,411
               Indirect (Note 3)                                                  1,756

                                                                                $14,167

                                       S-PMWRA-09-GR-004

            Unsupported:
              Personnel                                                         $10,435
              Indirect (Note 3)                                                   1,477

                                                                                $11,912




                                                                                                   I-21
                                   NORWEGIAN PEOPLE’S AID



                               NOTES TO FINANCIAL STATEMENTS 

                                     DECEMBER 31, 2009 




3.   INDIRECT CHARGES

     The accompanying indirect charges have been calculated using NPA’s actual indirect rates for the
     year ended December 31, 2009 of 14.15%. On certain grant agreements, the cumulative indirect
     costs charged exceeded the indirect budget line item as proposed by NPA. However, the formal grant
     awards stipulated grant budgets by objective rather than by specific line item.

     The accompanying fund accountability statements reflect the indirect costs calculated on all costs
     except the sub-contract amounts.




                                                                                                   I-22
                            GELMAN, ROSENBERG & FREEDMAN
                                 CERTIFIED PUBLIC ACCOUNTANTS


                     INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL



To the Board of Directors
Norwegian People’s Aid
Oslo, Norway


         We have audited the fund accountability statements of Norwegian People’s Aid’s (NPA) as of and
for the year ended December 31, 2009, and have issued our report thereon dated November 16, 2011. We
have also reviewed the separate cost-sharing contributions schedule.

         We conducted our audit in accordance with U.S. Government Auditing Standards, issued by the
Comptroller General of the United States. In planning and performing our audit, we considered NPA’s
internal control over financial reporting (internal control) as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of NPA’s internal control. Accordingly, we do not express an opinion on the
effectiveness of NPA’s internal control.

         Our consideration of NPA’s internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in NPA’s internal control that might be significant
deficiencies or material weaknesses and therefore, there can be no assurance that all deficiencies,
significant deficiencies, or material weaknesses have been identified. However, as discussed below, we
identified certain deficiencies in NPA’s internal control that we considered to be material weaknesses and
other deficiencies that we consider to be significant deficiencies.

        A deficiency in NPA’s internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination of
deficiencies, in NPA’s internal control, such that there is a reasonable possibility that a material
misstatement of NPA’s financial statements will not be prevented, or detected and corrected on a timely
basis. We consider the following deficiencies in NPA’s internal control to be material weaknesses:

                                         MATERIAL WEAKNESSES
        Sudan:

            NPA did not adhere to its established procurement policies and procedures (please refer to
             our comments titled “Procurement of Seeds” and “Procurement Documentation” in Section
             IV-Independent Auditors’ Report on Findings and Recommendations).

            Significant journal entries were made which were not properly supported (please refer to our
             comment titled “Journal Entries” in Section IV-Independent Auditors’ Report on Findings and
             Recommendations).




                       4550 MONTGOMERY AVENUE, SUITE 650 NORTH, BETHESDA, MARYLAND 20814
                              (301) 951-9090 • FAX (301) 951-3570 • WWW.GRFCPA.COM



                   MEMBER OF CPAMERICA INTERNATIONAL, AN AFFILIATE OF HORWATH INTERNATIONAL
      MEMBER OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS’ PRIVATE COMPANIES PRACTICE SECTION

                                                                                                             II-1
        		   Timesheets were incomplete and there were instances where the amount of salary expense
              charged to the U.S. Government award did not correspond to the hours indicated on the
              timesheets (please refer to our comment titled “Timesheets” Section IV-Independent Auditors’
              Report on Findings and Recommendations).

        		   NPA did not properly monitor funds advanced to sub-recipients (please refer to our comment
              titled “Partner and Sub-Recipient Monitoring” in Section IV-Independent Auditors’ Report on
              Findings and Recommendations).

        		   Cash Management: bank reconciliations were not properly completed, reviewed or approved
              and petty cash counts were not properly conducted or accurate (please refer to our comment
              titled “Cash Management” in Section IV-Independent Auditors’ Report on Findings and
              Recommendations).

        Angola:

        		   Timesheets were missing or incomplete (please refer to our comment titled “Timesheets”
              Section IV-Independent Auditors’ Report on Findings and Recommendations).

                                   ________________________________

                                        SIGNIFICANT DEFICIENCIES
        A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit the attention by those charged with
governance. We consider the following deficiencies in NPA’s internal control to be significant deficiencies:

        Sudan:

        		   Inventory was not properly controlled (please refer to our comment titled “Control of
              Inventory” in Section IV-Independent Auditors’ Report on Findings and Recommendations).

        		   Personnel files were incomplete (please refer to our comment titled “Personnel Contracts” in
              Section IV-Independent Auditors’ Report on Findings and Recommendations).

        		   Financial records were not properly filed and difficult to locate (please refer to our comment
              titled “Organization of Financial Documents” in Section IV-Independent Auditors’ Report on
              Findings and Recommendations).

        		   Numerous instances of payment vouchers not properly signed and dated (please refer to our
              comment titled “Internal Payment Vouchers” in Section IV-Independent Auditors’ Report on
              Findings and Recommendations).

                                   ________________________________

        We also noted other matters involving the internal control and its operation that we have reported in
a separate letter dated November 16, 2011 (please refer to Section IV-Independent Auditors’ Report on
Findings and Recommendations).

         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




November 16, 2011

                                                                                                           II-2
                            GELMAN, ROSENBERG & FREEDMAN
                               CERTIFIED PUBLIC ACCOUNTANTS


                        INDEPENDENT AUDITORS' REPORT ON COMPLIANCE



To the Board of Directors
Norwegian People’s Aid
Oslo, Norway


        We have audited the fund accountability statements of Norwegian People’s Aid (NPA) as of and for
the year ended December 31, 2009, and have issued our report thereon dated November 16, 2011. We
have also reviewed the separate cost-sharing contributions schedule.

        We conducted our audit in accordance with U.S. Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether the fund accountability statements are free of material
misstatement resulting from violations of agreement terms and laws and regulations that have a direct and
material effect on the determination of the fund accountability statements amounts.

        Compliance with agreement terms and laws and regulations applicable to NPA is the responsibility
of NPA’s management. As part of obtaining reasonable assurance about whether the fund accountability
statements are free of material misstatement, we performed tests of NPA’s compliance with certain
provisions of agreement terms and laws and regulations. However, our objective was not to provide an
opinion on overall compliance with such provisions. Accordingly, we do not express such an opinion.

        Material instances of noncompliance are failures to follow requirements or violations of agreement
terms and laws and regulations that cause us to conclude that the aggregation of misstatements resulting
from those failures or violations is material to the fund accountability statements. The results of our audit
disclosed the following material instance of noncompliance (please refer to Section IV of our report for
management’s responses to our findings):

                                                  Sudan

                                          Procurement of Seeds

December 31, 2009 Condition: Our audit testwork for the year ended December 31, 2009, noted that
NPA did not procure the required seed certificates mandated by the terms and conditions of the USAID
awards. We continue to recommend that the individuals responsible for the procurement of seeds be aware
of the U.S. Government regulations before procuring the seeds.

Criteria: Subpart C of Office of Management and Budget (OMB) Circular A-110, "Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations", Sections .45 and .46, require that, for all procurement of goods and services,
some form of cost or price analysis shall be made and documented in the procurement files in connection
with every procurement action. Price analysis may be accomplished in various ways, including the
comparison of price quotations submitted, market prices and similar indicia, together with discounts. Cost
analysis is the review and evaluation of each element of cost to determine reasonableness, allocability



                    4550 MONTGOMERY AVENUE, SUITE 650 NORTH, BETHESDA, MARYLAND 20814
                           (301) 951-9090 • FAX (301) 951-3570 • WWW.GRFCPA.COM



                 MEMBER OF CPAMERICA INTERNATIONAL, AN AFFILIATE OF HORWATH INTERNATIONAL
    MEMBER OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS’ PRIVATE COMPANIES PRACTICE SECTION
                                                                                                           III-1
and allowability. In addition, procurement records and files for purchases in excess of the small purchase
threshold shall include the following at a minimum: (a) basis for contractor selection, (b) justification for
lack of competition when competitive bids or offers are not obtained, and (c) basis for award cost or price.

Questioned Costs: None noted.

Context, Effect and Cause: NPA-Sudan did not obtain the required seed certificates as required by the
special provisions contained within the grant agreement. Accordingly, such costs are not considered an
allowable expense under the U.S. Government award. In addition, by not adhering to established
procurement guidelines with respect to the procurement process, certain goods and services may have
been purchased at above prevailing market prices.

Recommendation: We continue to recommend that the individuals responsible for the procurement of
seeds be aware of the U.S. Government regulations before procuring the seeds. If it is deemed too difficult
to procure the proper certificates, we recommend that the staff responsible for procuring the seeds request
a waiver from USAID (this is generally done at the time a proposal is submitted to USAID).

                                      Procurement Documentation

December 31, 2009 Condition: While we noted improvement in the documentation and adherence with
established policies and procedures, we continued to note the following:

       Non-compliance with established NPA procurement policies (i.e. documentation of the fact that
        there was a proper tender procedure for large purchases (in excess of $40,000);
       Justification for selection of vendors was not documented.

Criteria: Subpart C of Office of Management and Budget (OMB) Circular A-110, "Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations", Sections .45 and .46, require that, for all procurement of goods and services,
some form of cost or price analysis shall be made and documented in the procurement files in connection
with every procurement action. Price analysis may be accomplished in various ways, including the
comparison of price quotations submitted, market prices and similar indicia, together with discounts. Cost
analysis is the review and evaluation of each element of cost to determine reasonableness, allocability
and allowability. In addition, procurement records and files for purchases in excess of the small purchase
threshold shall include the following at a minimum: (a) basis for contractor selection, (b) justification for
lack of competition when competitive bids or offers are not obtained, and (c) basis for award cost or price.

Questioned Costs: $51,740 (including indirect costs on the direct costs of $6,414) under Award # S-
PMWRA-09-GR-012.

Context, Effect and Cause: NPA-Sudan did not adhere to established guidelines with respect to the
procurement process. Certain goods and services may have been purchased at above prevailing market
prices.

Recommendation: We strongly recommend that all employees responsible for the procurement of goods
and services be reminded of NPA’s current procurement policies. All responsible employees should also
be reminded of the fact that non-compliance with such policies may put NPA at risk of returning U.S.
Government funds, which were used to pay for goods and services for which NPA did not adhere to its
procurement policies.

                                 Partner and Sub-Recipient Monitoring

December 31, 2009 Condition: Based upon our audit testwork over the monitoring and accounting for
sub-recipient transactions, we noted the following:

       Advances to partners/sub-recipients not reconciled in a timely manner;
       Site visits (i.e. monitoring) not documented;
       Financial reports not submitted in a timely manner by partners/sub-recipients;


                                                                                                         III-2
Criteria: Subpart C of Office of Management and Budget (OMB) Circular A-110, "Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations", Section .51, states that recipients are responsible for managing and monitoring
each project, program, sub-award, function or activity funded by each Federal award.

Questioned Costs: None noted.

Context, Effect and Cause: The failure by NPA to adhere to strict policies and procedures with respect
to the monitoring of sub-grantees greatly enhances the possibility of errors, omissions, and unallowable
expenditures being incurred by the sub-recipients.

Recommendation: While our audit procedures noted that a partner/sub-recipient monitoring policy was
established, due to late implementation, site visits were not performed for all partners. We continue to
recommend that management work with staff to ensure that the partner/sub-recipient monitoring is being
conducted in accordance with the policies and procedures.

                                 ________________________________

        We considered the material instances of noncompliance in forming our opinion on whether NPA’s
2009 fund accountability statements are presented fairly, in all material respects, in accordance with the
terms of the agreements and in conformity with the basis of accounting described in Note 1 to the fund
accountability statements, and this report does not affect our report on the fund accountability statements
dated November 16, 2011.
         We also noted certain immaterial instances of noncompliance that we have reported to the
management of NPA in our report on findings and recommendations dated November 16, 2011 (please
refer to Section IV-Independent Auditors’ Report on Findings and Recommendations).
         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




November 16, 2011




                                                                                                       III-3
                            GELMAN, ROSENBERG & FREEDMAN
                                CERTIFIED PUBLIC ACCOUNTANTS


                                  INDEPENDENT AUDITORS' REPORT 

                                ON FINDINGS AND RECOMMENDATIONS 




To the Board of Directors
Norwegian People’s Aid
Oslo, Norway


         In planning and performing our audit of the fund accountability statements of Norwegian People’s
Aid (NPA) as of and for the year ended December 31, 2009, in accordance with auditing standards
generally accepted in the United States of America, we considered NPA’s internal control over financial
reporting as a basis for designing our auditing procedures, for the purpose of expressing our opinion on
the fund accountability statements, but not for the purpose of expressing an opinion on the effectiveness
of NPA’s internal control. Accordingly, we do not express an opinion on the effectiveness of NPA’s
internal control.

         Our consideration of NPA’s internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in NPA’s internal control that might be
significant deficiencies or material weaknesses and therefore, there can be no assurance that all such
deficiencies have been identified. However, as discussed below, we identified certain deficiencies in
NPA’s internal control that we consider to be material weaknesses and other deficiencies that we
consider to be significant deficiencies.

        A deficiency in NPA’s internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency or combination
of deficiencies in NPA’s internal control, such that there is a reasonable possibility that a material
misstatement of NPA’s financial statements will not be prevented, or detected and corrected on a timely
basis. We consider the following deficiencies in NPA’s internal control to be material weaknesses:

                                        MATERIAL WEAKNESSES

                                                 (SUDAN)
                                          Procurement of Seeds

December 31, 2005, 2006, 2007 and 2008 Comment: Our audit testwork over the USAID awards for the
years ended December 31, 2005, 2006, 2007 and 2008 revealed that NPA did not procure the required
seed certificates mandated by the terms and conditions of the USAID awards. We continue to recommend
that the individuals responsible for the procurement of seeds be aware of the U.S. Government regulations
before procuring the seeds. If it is deemed too difficult to procure the proper certificates we recommend that
the staff responsible for procuring the seeds request a waiver from USAID (this is generally done at the time
a proposal is submitted to USAID).


                    4550 MONTGOMERY AVENUE, SUITE 650 NORTH, BETHESDA, MARYLAND 20814
                           (301) 951-9090 • FAX (301) 951-3570 • WWW.GRFCPA.COM



                 MEMBER OF CPAMERICA INTERNATIONAL, AN AFFILIATE OF HORWATH INTERNATIONAL
    MEMBER OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS’ PRIVATE COMPANIES PRACTICE SECTION

                                                                                                           IV-1
December 31, 2009 Status: Our audit testwork for the year ended December 31, 2009, noted that NPA
did not procure the required seed certificates mandated by the terms and conditions of the USAID awards.
We continue to recommend that the individuals responsible for the procurement of seeds be aware of the
U.S. Government regulations before procuring the seeds.

Management Response: NPA ensures that all seeds purchased from Uganda and Kenya have the
required seed certification. NPA did include in its proposal a waiver request on the need to provide
certification for seeds purchased in South Sudan for 2009 in the absence of a government body yet able
to provide such certificates. NPA tested seeds to above FAO phytosanitary standards as required for
seeds purchased locally in Sudan and the seed test information was made available.

                                            Journal Entries

December 31, 2005, 2006, 2007 and 2008 Comment: Our 2005, 2006, 2007 and 2008 audit testwork
revealed that significant journal entries were made throughout the fiscal years without proper supporting
documentation. In addition, the purpose for the entries was generally not well documented. We strongly
recommend that all journal entries posted to the general ledger contain a description of why the entries
were proposed as well as copies of the original source documentation (i.e. invoices, purchase orders,
contracts, etc.) which would support the entries.

December 31, 2009 Status: Our audit testwork for the year ended December 31, 2009 noted several
journal entries for expenditures improperly classified in the general ledger. We further noted that these
journal entries were not always reviewed and approved. In each instance, NPA-Sudan finance staff was
able to explain the nature of the reclassification and/or adjustment. However, we strongly recommend
that all adjusting journal entries be reviewed and approved prior to being posted into the general ledger.
In addition, we recommend NPA-Sudan finance staff be more diligent in the review of expense
classifications prior to entry into the general ledger.

Management Response: In general the quality of documentation supporting journal entries improved
compared to prior years. However, we faced challenges of wrong classification of costs occasioned by the
new staff who we are training in the various field locations. These erroneous classifications had to be
corrected as they were detected during internal reviews. Management now reviews and approves
expenses before they are booked into the system to minimize on such errors.

                                              Timesheets

December 31, 2005, 2006, 2007 and 2008 Comment: Our examination of the timesheet process during
the fiscal years ending December 31, 2005, 2006, 2007 and 2008 revealed the following:

   Instances where timesheets were not completed.


   Instances where employees did not sign their timesheets. 

   Instances where timesheets were not signed by a supervisor indicating review and approval. 

   Instances where timesheets did not indicate the programs worked on during the month.


   Instances where the salary expense recorded in the general ledger did not match the salary expense 

    which should have been recorded in the general ledger based upon the hours recorded on the
    timesheets.

Based upon the aforementioned, we recommend that all employees be continually reminded of the
importance of completing accurate timesheets. We also recommend that all supervisors be reminded that
all timesheets should be signed and dated indicating a proper review and approval. In addition, the
accounting staff should also be more diligent in how salary expense is recorded in the general ledger (all
costs should be supported by the hours reported on the timesheets by the employees).

December 31, 2009 Status: Our examination of the timesheet process during the fiscal year ending
December 31, 2009 revealed the following:

   Instances where timesheets were missing (7 out of 92 tested)
                                                                                                     IV-2
		   For approximately 25% of our sample of timesheets tested, salary expense recorded in the general
      ledger did not match the salary expense which should have been recorded in the general ledger
      based upon the hours recorded on the timesheets.

Accordingly, based upon the aforementioned items, the prior year recommendation is reiterated.

Management Response: Time sheet management has been a long-standing challenge, which
nevertheless we’ve endeavored to address over the years; and attained modest progress.

The following approach has been adopted to make further improvements in the area:

     Timesheet form has been revised to make it easier to fill for all staff
     A form for track movement/dispatching and receiving of T/sheets from the field to Head office Juba
      has been designed.
     A full time officer has been assigned to handle this function and make follow up of T/sheets esp. from
      the field.
     Timesheets reports will be sent out on a monthly basis to Program Managers to verify all info
      regarding coding, signatures, and the hours charged.
     This info will then be sent to Finance after verification from PMs.

                                       Procurement Documentation

December 31, 2005, 2006, 2007 and 2008 Comment: As a result of our audit testwork over NPA-
Sudan’s procurement process we noted the following deficiencies:

		   Non-compliance with established NPA procurement policies (including the receipt of bids and the
      review and acceptance by procurement committee);
     Sole source justification was not documented;
     Justification for selection of vendors was not documented.

We strongly recommend that all employees responsible for the procurement of goods and services be
reminded of NPA’s current procurement policies. All responsible employees should also be reminded of
the fact that non-compliance with such policies may put Norwegian People’s Aid at risk of returning U.S.
Government funds, which were used to pay for goods and services for which Norwegian People’s Aid did
not adhere to its procurement policies.

December 31, 2009 Status: Although, we noted improvement in the documentation and adherence with
established policies and procedures, documentation of the vendor selection process could be improved.
Each procurement analysis should include a memo stating the reason why a particular vendor was
selected. In addition, for large purchases (in excess of $40,000), NPA-Sudan should document that a
tender notice was published, as required by NPA’s current procurement policy.

Management Response: In 2008 NPA’s head office (HO) developed comprehensive procurement
guidelines and trained all procurement personnel globally with constant follow-up to ensure adherence to
the policies and guidelines. Further, the main office for the Sudan operations was moved from Nairobi to
Sudan to enhance the operations. The move, coupled with the availability of a variety of vendors has
made competitive bidding possible. Hence we have registered a remarkable improvement in this area and
we are committed to ensure 100% compliance in this area. However, it is necessary to mention that
priority was given to areas where huge amounts were involved, like transportation and bulk diesel. In
2011 we have been focusing on the rest of the service areas, such as medical coverage for all staff,
personal accident and group life insurance. Management of the Sudan office has also recruited a deputy
logistics manager to enhance capacity. One of his roles is to ensure the whole procurement process is
followed and appropriately documented.

                                  Partner and Sub-Recipient Monitoring

December 31, 2006 and 2007 Comment: Based upon our audit testwork over the monitoring and
accounting for sub-recipient transactions we noted the following.


                                                                                                       IV-3
   Advances to partners/sub-recipients not properly reconciled; 

   Site visits not documented; 

   Documentation of selection process not documented; 

   Agreements between the partners/sub-recipients and NPA not signed;


   Financial reports not submitted by partners/sub-recipients;


   Lack of documentation to support partner/sub-recipient expenditures; 


Based upon the aforementioned items, we strongly recommend that the management of Norwegian
People’s Aid implement strict policies and procedures with respect to the monitoring of partners/sub-
recipients. Additionally, we recommend that the staff of Norwegian People’s Aid be notified of such
policies and procedures and that the HO staff follow-up with the field staff to ensure that the partner/sub-
recipient monitoring is being conducted in accordance with the policies and procedures.

December 31, 2008 Comment: Our audit procedures noted that a partner/sub-recipient monitoring policy
was established. However, due to late implementation, site visits were not performed for all partners. We
continue to recommend that management work with staff to ensure that the partner/sub-recipient
monitoring is being conducted in accordance with the policies and procedures.

December 31, 2009 Status: During the current year, there were no new partners and for those partners
who cleared prior year advances during the current year, we noted that there were signed partner
agreements and adequate documentation to support the reported expenditures.

However, we also noted that partner reporting is not timely, resulting in September 2008 advances not
being cleared from NPA books until June of 2010. In addition, none of the four partners tested during
fiscal 2009 received a site visit in either 2008 or 2009. We strongly recommend that if NPA continues to
work with partner organizations in the future, site visits must be more timely (quarterly is recommended)
and the documentation of such visits is crucial to documenting that NPA-Sudan is properly monitoring its
partners.

Management Response: NPA received partner funds late in 2008 which was targeting Upper Nile state.
This is a seasonal area with unique logistical challenges. Besides this we managed to have more than
80% site visits. All site visits were documented and where it was impossible to visit reasons were
documented (i.e. bad weather).

However, we are working continuously with our partners and recognize that we need tighter systems for
follow-up and competence training with respect to areas such as anti-corruption, internal controls,
reporting and bookkeeping. We will begin altering our current partner agreements so that the agreement
will include anti-corruption clauses and other internal control points. We have also asked our project
managers to look at other methods for following up with partners which is more transparent than the
current system.

                                           Cash Management

December 31, 2006 and 2007 Comment: During our audit testwork conducted in Juba and Yei, South
Sudan it came to our attention that the petty cash counts were not accurate. Accordingly, we recommend
that the petty cash accounts be counted by two individuals on a weekly basis as well as on the last day of
each month. All counts should then be reviewed and approved by either the finance manager or the
country representative. In addition, the cash counts conducted at the end of each month should then be
reconciled to the petty cash account balances within the general ledger. Additionally, to enhance the
controls over petty cash, we suggest the country representative conduct surprise cash counts at least
once a month.

December 31, 2008 Comment: Based on our audit testwork conducted in Yei, South Sudan, we noted
bank reconciliations and petty cash counts were not properly prepared and reviewed.

December 31, 2009 Status: Based upon our 2009 audit testwork, we again noted instances where the
bank reconciliations and petty cash counts were not properly prepared and reviewed.
                                                                                                       IV-4
Management Response: The relocation of the office from Nairobi to Juba had its challenges as some of
the experienced staff did not move to Juba, thus, requiring the hiring of new staff which required
significant training. The transition process resulted in having some delays and in having updated cash
and bank reconciliations.

Further, in a cash society like Sudan, during the audit periods, cash management is always a challenge.
We operate in remote locations which are difficult to access and in addition are not available for control
for a large part of the year. This has been and continues to be a challenge for some locations. However,
focus has been on this area for years and we are moving towards a more controlled environment with
banking facilities in the larger towns. We also ensure that segregation of duties are maintained at all
locations with the project managers being responsible for a minimum of monthly cash counts and sign-
offs.

With all of that being said, we have implemented the following corrective action plan with respect to cash
management:

   The capacity in the finance office has been increased by recruitment of the deputy finance manager;


   Finance staff have now been trained to enhance their competencies; 

   Frequent field visits by HO staff have not been formalized;


   Surprise cash counts are regularly performed;


   We are revising our current procedures with respect to cash management so that all locations will


    have a fixed amount in the cash boxes and all cash ledgers are reconciled against the accounting
    system on a monthly basis and corrected, if necessary. In addition, we are continuously looking at
    ways to reduce the amount of actual cash maintained in the cash boxes.

                                               (ANGOLA)
                                             Journal Entries

December 31, 2005 Comment: Our review of the adjusting journal entries posted to the general ledger
for the NPA-Angola programs revealed a lack of supporting documentation supporting the reason for the
entries. We strongly recommend that when adjusting journal entries are posted to the general ledger, all
entries be supported with written documentation which supports the reason why the entry is being posted
as well as copies of the original charge or calculations which support the amounts being posted to the
ledger.

December 31, 2006, 2007 and 2008 Comment: We noted instances where NPA-Angola had supporting
documentation for the purpose of the journal entries; however, the explanation or basis was not present.
We recommend that all journal entries clearly indicate the explanation for the entry. In addition, we
recommend all journals be signed to indicate review and approval.

December 31, 2009 Status: Our audit work revealed that journal entries were appropriately supported
with documentation and explanation for the entry was evidenced on the documentation. We consider the
prior comment to be cleared.

                                               Timesheets

December 31, 2005 Comment: Our audit disclosed that NPA-Angola employees did not keep daily
timesheets indicating the respective projects that they were working on during the time period under audit.
While the U.S. Department of State grant was confined to one area of Angola (Cuanza Sul province), and
the Base Manager reported which employees were working directly on the “Mine Action Project” each
month, we strongly recommend that Norwegian People’s Aid implement a time keeping system which
would require all employees to report the project on which they were working each day.

December 31, 2006 Comment: During February, 2006 NPA-Angola implemented the use of
standardized timesheets.

                                                                                                      IV-5
Our testwork over timesheets revealed the following:



   Multiple timesheets were not signed by the employee.


   Timesheets did not indicate all hours worked for the period. 

   Timesheets did not indicate the hours taken for vacation, sick or holiday leave. 

   One timesheet was not signed by a supervisor to indicate review and approval. 


December 31, 2007 and 2008 Comment: Our 2007 and 2008 audit work revealed that timesheets have 

been revised to document all hours worked. However, our audit work disclosed the following:



   Missing timesheets.


   Timesheets missing employee signature. 

   Timesheets missing supervisor signature.



Based upon the aforementioned items, we recommend the following: 


   The finance and HR departments should be more diligent in their review of the timesheets, thus,
    ensuring that all employees have completed their monthly timesheets.
   All timesheets should be signed and dated by the employees and the employees’ supervisor, thus,
    indicating a proper review and approval of the timesheets.

December 31, 2009 Status: Our 2009 audit work continued to reveal instances of missing timesheets as
well as instances where the salary expense recorded in the general ledger did not match the salary
expense which should have been recorded based upon the hours recorded on the timesheets.

Management Response: We have continued our work to improve the quality of the time sheets and will
ensure that all timesheets are present, properly signed by the employees and the supervisor. In addition,
all allocations will be reviewed to ensure salary expense is properly allocated based upon time reported
on the timesheets.

                                        Procurement of Equipment

December 31, 2007 and 2008 Comment: Our audit revealed that NPA-Angola did not properly
document the procurement of equipment purchased with U.S. Department of State funds in accordance
with policies and procedures.

December 31, 2009 Status: Our 2009 audit work did not disclose any instances of non-compliance with
NPA’s current procurement policies and procedures.

                                  ________________________________

                                       SIGNIFICANT DEFICIENCIES
         A significant deficiency is a deficiency, or a combination of deficiencies, in NPA’s internal control,
that is less severe than a material weakness, yet important enough to merit attention by those charged
with governance.

        We consider the following deficiencies in NPA’s internal control to be significant deficiencies:

                                                  (SUDAN)
                                            Control of Inventory

December 31, 2005, 2006 and 2007 Comment: Our review of various inventory cycles and related
controls revealed the following:

   Certain inventory stores lacked bin control cards (general equipment store).

                                                                                                           IV-6
		   Certain inventory stores lacked up to date inventory lists (medical supplies) or the inventory list did
      not exist (vehicles parts, general equipment store).
     Unit costs were not clearly documented on inventory lists or related inventory documents.
     The inventory process lacked identification numbers and proper documentation supporting
      distribution and use of inventory. Issue notes or inventory distributions reports filed by team did not
      clearly identify the items issued from any store. Vehicle spare parts were identified on vehicle job
      cards, however lacked the part number related to the bin cards.
		   Inventory lists are not reviewed by management on a regular basis.

Subpart C of Office of Management and Budget (OMB) Circular A-110, “Uniform Administrative
Requirements for Grants and Agreements with Institutes of Higher Education, Hospitals, and Other Non-
Profit Organizations,” requires that recipient’s property management standards for equipment acquired
with Federal funds and federally-owned equipment shall include but not be limited to the following:

      (1) Equipment records shall be maintained accurately and shall include the following information.

          (i) A description of the equipment.
          (ii) Manufacturer’s serial number, model number, Federal stock number, national stock number,
          or other identification number.
          (iii) Source of the equipment, including the award number.

          (iv) Whether title vests in the recipient or the Federal government.

          (v) Acquisition date (or date received, if the equipment was furnished by the Federal Government)
          and cost.
          (vi) Information from which one can calculate the percentage of Federal participation in the cost of
          the equipment (not applicable to equipment furnished by the Federal government).

          (vii) Location and condition of the equipment and the date the information was reported.

          (viii) Unit acquisition cost.

          (ix) Ultimate disposition data, including date of disposal and sales price or the method used to
          determine current fair market value where recipient compensates the Federal awarding agency
          for its share.

      (2) Equipment owned by the Federal government shall be identified to indicate Federal ownership.

      (3) A physical inventory of equipment shall be taken and the results reconciled with the equipment
          records at least once every two years (we strongly recommend annually).

          Any differences between quantities determined by the physical inspection and those shown in the
          accounting records shall be investigated to determine the causes of the difference. The recipient
          shall, in connection with the inventory, verify the existence, current utilization, and continued need
          for the equipment.

      (4) A control system shall be in effect to insure adequate safeguards to prevent loss, damage, or
          theft of the equipment. Any loss, damage, or theft of equipment shall be investigated and fully
          documented; if the equipment was owned by the Federal government, the recipient shall promptly
          notify the Federal awarding agency.

      (5) Adequate maintenance procedures		 shall be implemented to keep the equipment in good
          condition.

      (6) Where the recipient is authorized or required to sell the equipment, proper sales procedures shall
          be established which provide for competition to the extent practicable and result in the highest
          possible return.

                                                                                                           IV-7
December 31, 2008 Comment: During our audit testwork for the year ended December 31, 2008, we
noted improvement over the control of inventory and corresponding records. However, we believe
additional attention is required in this area. We recommend management continue to monitor the
progress over the control of inventory.

December 31, 2009 Status: During our review of the Juba office inventory records, we again noted
improvement with respect to the record keeping, however, we also noted that some of the records were
again incomplete. Therefore, we continue to recommend that continued attention be given to NPA-
Sudan’s inventory record keeping.

Management Response: Due to the size of NPA programs in Southern Sudan and the amount of field
locations, the collection and analysis of data is still on-going and at the time of audit we were still updating
our records. A deputy logistics manager has been recruited with main responsibility to update all inventory
and assets lists.

                                            Personnel Contracts

December 31, 2005, 2006 and 2007 Comment: Our audit testwork over payroll revealed that certain
personnel files were not complete and up-to-date. We recommend that management review all personnel
files to ensure that all employee contracts are current and up-to-date.

December 31, 2008 Comment: Our audit testwork over the payroll cycle once again revealed instances
of missing or incomplete personnel files. We continue to recommend management review all personnel
files to ensure they are complete and up-to-date.

December 31, 2009 Status: Our audit testwork over the payroll cycle once again revealed instances of
missing or incomplete personnel files. We continue to recommend management review all personnel files
to ensure they are complete and up-to-date.

Management Response: In the past we have been having a decentralized system where personnel files
are kept in each field location where the staffs work. This system however proved to be ineffective as it
takes time to have the information as and when needed. In 2009 NPA started working on centralizing and
updating personnel files in Juba, this process is ongoing and will be complete during the 2011 financial
year. However, all missing contracts can be traced when required.

                              Accounting Policies and Procedures Manual

December 31, 2006 and 2007 Comment: During our 2006 and 2007 audit work, we noted that the field
office accounting policies and procedures manual was outdated. Accordingly, we recommend that the
management of Norwegian People’s Aid revise and update the current field office accounting policies and
procedures manual. Once the revision is complete we recommend that the appropriate staff members
receive a copy and be required to sign a document indicating they have read and understand the manual.

December 31, 2008 Comment: Our 2008 audit noted that the field office accounting policies and
procedures manual was in process to be updated.

December 31, 2009 Status: The field office accounting policies and procedures manual was issued in
2009.

                                  Organization of Financial Documents

December 31, 2006 2007 and 2008 Comment: Our audit revealed that the field office financial records
pertaining to fiscal years 2006 2007and 2008 were not filed in a consistent manner and at times were
difficult to locate. We strongly recommend that the members of the finance and accounting department be
more diligent in the filing of the documents which support the accounting transactions for the South
Sudan programs.


                                                                                                           IV-8
December 31, 2009 Status: Our audit again revealed that the field office financial records pertaining to
2009 were not filed in a consistent manner, thus, resulting in a difficult audit trail. We continue to
recommend that the finance and accounting department be more diligent in the filing of financial
documents.

Management Response: The documents are now filed in our archive in Yei in a chronological order
using voucher numbers generated by the accounting software. We consider the system to be efficient.
The missing vouchers resulted in moving the sampled vouchers from the archive in Yei to Juba and
rearranging them in an order different from the preexisting one (according to account numbers). Most of
the vouchers now have been found and scanned.

                                       Internal Payment Vouchers

December 31, 2006 and 2007 Comment: During the course of our 2006 and 2007 audit, we noted
numerous instances in which Norwegian People’s Aid ’s internal payment vouchers were not signed and
dated indicating approval. We strongly suggest that all payment vouchers be signed and dated by the
appropriate individuals indicating approval for payment. In addition, we recommend that members of the
accounting department be notified that payments are not to be processed until a signed and dated
payment voucher is received by the accounting department.

December 31, 2008 Comment: During our 2008 audit, we again noted numerous instances of missing
signatures and dates in addition to inconsistent use of internal payment vouchers. We continue to
recommend management emphasize adherence to internal policies and procedures with respect to
processing payments.

December 31, 2009 Status: Our 2009 audit disclosed numerous instances of missing signatures and
dates in addition to the inconsistent use of internal payment vouchers. We again recommend
management of the NPA emphasize the importance of adhering to internal policies and procedures with
respect to the processing of payments and the use of internal payment vouchers.

Management Response: NPA Sudan has two payment authorization forms one used by Juba head
office where major payments take place. This form has to be signed by four people. Another one is used
in the field for imprest accounting with two signatures. The mentioned incident is where staff was
transferred from Juba to the field and kept using the HO (Juba) form. This makes it look as if it is missing
signatures. The management will ensure that such mistakes are not repeated.

                               Compliance with Anti-Terrorism Provision

December 31, 2005, 2006, 2007 and 2008 Comment: During the course of our audit, it came to our
attention that Norwegian People’s Aid did not have a formal policy documenting compliance with the
United States Agency for International Development’s special grant provision on “anti-terrorism”.
Accordingly, we recommend that Norwegian People’s Aid purchase web based software that is linked to
the U.S. Government’s list of terrorists and terrorists’ organizations. Additionally, management of
Norwegian People’s Aid should document that all contractors and employees paid by funds provided by
USAID have been properly screened through the web based software to ensure that Norwegian People’s
Aid is not funding any terrorist or terrorists’ organization.

December 31, 2009 Status: A web based software was purchased in late 2008 and is maintained by a
compliance officer in the headquarters office (HO) in Oslo. The compliance officer is responsible for
screening all field office employees, partners and suppliers. This process was carried out three times
during 2009 and no deviations were noted.

Based upon the volume of transactions, during 2011, HO took the initiative of sharing the software with all
field offices and trained relevant personnel on the importance and how to use the software. In 2011, all
field offices have access and can screen continuously.




                                                                                                       IV-9
                                              (CAMBODIA)
                                         Travel Documentation
December 31, 2007 Comment: Our audit revealed two instances where documentation to support the
travel expenses was missing. We strongly recommend that all employees of NPA-Cambodia be reminded
of the importance of providing documentation to support the actual travel costs at the conclusion of their
travel.

December 31, 2008 Comment: As a result of our 2008 audit work, we noted one travel expense that was
not properly supported with original receipts. We recommend that all travel costs be properly documented
with original receipts.

December 31, 2009 Status: Our 2009 audit work did not reveal any instances where travel costs were
not properly documented.

                                               (ANGOLA)
                                          Personnel Contracts

December 31, 2005 and 2006 Comment: Our examination of certain employee contracts revealed that
the employee contracts did not contain the appropriate documentation (an amendment to the original
contract) to support the employee’s current annual salary. Accordingly, we suggest that all personnel
contracts be reviewed to ensure that all contracts are current, up to date and correspond to the amount of
salary that each employee is currently being paid.

December 31, 2007 and 2008 Comment: We continued to note missing contracts and were unable to
verify amounts paid to employees agreed to their personnel contracts.

December 31, 2009 Status: Based upon our 2009 audit work, we noted considerable improvement with
respect to the documentation maintained in the personnel files and that all contracts were current and up-
to-date.

               Compliance with Anti-Terrorism Provision, Suspension and Debarment

December 31, 2007 and 2008 Comment: Our audit testwork over NPA’s U.S. Department of State
grants revealed that NPA-Angola did not comply with Executive Order 13224, Blocking Property and
Prohibiting Transactions Who Commit, Threaten to Commit, or Support Terrorism. We recommend that all
contractors and employees paid by funds provided by USDOS be properly screened to ensure that NPA
is not funding terrorists or terrorist organizations as defined by the U.S. Government.

Subsequent to the period under our audit, NPA’s home office has implemented software to document
compliance with these provisions. We recommend this software be accessible to the NPA-Angola field
office in order to comply with these provisions.

December 31, 2009 Status: A web based software was purchased in late 2008 and is maintained by a
compliance officer in the headquarters office (HO) in Oslo. The compliance officer is responsible for
screening all field office employees, partners and suppliers. This process was carried out three times
during 2009 and no deviations were noted.

Based upon the volume of transactions, during 2011, HO took the initiative of sharing the software with all
field offices and trained relevant personnel on the importance and how to use the software. In 2011, all
field offices have access and can screen continuously.




                                 ________________________________

                                                                                                     IV-10
                                     OTHER AREAS OF CONCERN
        In addition to the aforementioned material weaknesses and significant deficiencies, we noted
other areas of concern, that while not considered material weaknesses or significant deficiencies, we
believe merit the attention of those charged with governance:

                                                (SUDAN)

                     Reconciliation and Reporting of Employee Travel Advances

December 31, 2009 Comment: Our 2009 audit work revealed that employee travel advances are not
properly reconciled on a monthly basis. In addition, our audit work revealed that the NPA-Sudan office
does not currently have forms in place to request travel advances or for the clearance of such advances
upon completion of travel. We also noted instances in which advances were given in one currency and
the clearance of the advance was submitted in a different currency without explanation as to how the
receipts related to the claimed expenses or how the exchange rate used was calculated.

Criteria: 22 CFR 226 Subpart C Section 21 "Standards for Financial Management Systems" requires
recipients of Federal funds to establish financial management systems that will ensure effective control
over and accountability for all funds, property and other assets.

Questioned Costs: None noted.

Context, Effect and Cause Lack of critical internal controls increase risk associated with financial
management, and the potential for the misappropriation of funds.

Recommendation: Based upon the aforementioned, we recommend that NPA-Sudan adopt and
implement forms for all employees to use when requesting travel advances and when submitting the
expenses which would clear the advances. All forms should require signatures by the employee and the
employee’s supervisor which would attest to the appropriateness and truthfulness of reporting.

We also strongly recommend that the finance department ensure that all employee travel advances are
reconciled on a monthly basis and that employees with outstanding advances be notified of such
balances each month.

Management Response: Management agrees with the recommendation and will ensure that this is
implemented.

                                       Classification of Expenses

December 31, 2005, 2006 and 2007 Comment: Our audit testwork for 2005, 2006 and 2007 revealed
instances where similar transactions were posted to different accounts within the general ledger. We
recommend that the accounting staff be more diligent in their classification and posting of expenses within
the general ledger.

December 31, 2008 Comment: Our audit testwork for 2008 again noted instances where similar
transactions were posted to different accounts within the general ledger. We continue to recommend
management be more diligent in its classification of expenses within the general ledger.

December 31, 2009 Status: Our audit testwork for 2009 again noted instances where similar transactions
were posted to different accounts within the general ledger. We continue to recommend management
(specifically the finance department) be more diligent when recording transactions within the general
ledger to ensure that similar transactions are recorded in a similar fashion within the general ledger.

Management Response: We agree with the comment and will comply.



                                                                                                     IV-11
                              Submission of Quarterly Financial Reports

December 31, 2006 2007 and 2008 Comment: Our audit testwork disclosed instances in which
Norwegian People’s Aid did not submit quarterly financial reports by the deadlines stipulated in the grant
agreements. We recommend Norwegian People’s Aid submit all financial reports by the required due
dates in accordance with U.S. Government regulations.

December 31, 2009 Status: Our 2009 audit work again disclosed instances in which NPA did not submit
quarterly financial reports by the deadlines stipulated in the grant agreements. We continue to
recommend NPA submit all financial reports by the required due dates in accordance with U.S.
Government regulations.

Management Response: Management agrees and will ensure compliance with guidelines with regard to
reporting.
                                              (CAMBODIA)
                                              Timesheets

December 31, 2008 Comment: During the course of our audit work, we noted one employee whose
monthly salary expense was allocated between two projects. While we did not question the cost (based
upon discussions with management, the employee and the physical location of the employee, which
supported the allocation), we strongly believe that NPA-Cambodia office should implement monthly
timesheets in which all employees document the time worked on each program on a daily basis.

December 31, 2009 Status: Our 2009 audit work did not disclose any instances in which salary expense
was not properly allocated among programs.

                                               (ANGOLA)
                                         Bank Reconciliations

December 31, 2005 Comment: Our audit revealed that the bank account in Luanda was not properly
reconciled in a timely manner. To ensure that cash is properly stated and that all financial transactions
have been properly recorded in the general ledger we strongly recommend that the bank account be
properly reconciled to the general ledger in a timely manner. We suggest that the reconciliations be
completed within seven days upon receipt of the bank statement. Additionally, we recommend that all
reconciliations be reviewed and approved by the Finance Director. The reconciliations should be signed
by the individual who prepares the reconciliation as well as the Finance Director (indicates approval).

December 31, 2006 Comment: NPA-Angola has improved their bank reconciliation procedures.
However, we continue to recommend that bank reconciliations be prepared in a timely manner.

December 31, 2007 and 2008 Comment: Our testwork noted the bank reconciliations are being
prepared in a timely manner. In general the reconciliations are signed by the person who prepared them
and the reviewer; however, we noted instances where the reconciliation was not signed by the reviewer.
We continue to recommend all reconciliations be signed by the reviewer as part of proper internal
controls.

December 31, 2009 Status: Our audit testwork once again revealed that the bank reconciliations were
not prepared in a timely manner. We continue to recommend that all bank reconciliations be prepared
monthly in a timely manner (within five days after receiving the bank statement) so that any discrepancies
can be identified in a timely manner.

Management Response: We have improved working practices in line with the procedures to ensure that
all reconciliations are prepared in a timely manner and reviewed and approved by an appropriate
individual. All reconciliations are signed and dated by the preparer and the reviewer.


                                                                                                    IV-12
                                          Fixed Asset Ledger

December 31, 2005 Comment: Our audit disclosed that the Logistics office of NPA-Angola maintains a
ledger of all assets purchased with donor funds; however, the ledger does not indicate the donor funds
used to purchase specific assets. To comply with U.S. Government regulations, we recommend that the
current fixed asset ledger be updated to indicate which donor funds were used to purchase which fixed
assets. In addition, we suggest that the ledger be updated on a monthly basis (for all purchases in excess
of $5,000) and reconciled with the accounting records.

December 31, 2006 Comment: We reviewed the updated assets ledger and noted that the ledger still
does not indicate the source of funds (donor) which was used to purchase the assets. We continue to
recommend that the Logistics office update the assets ledger to indicate the sources of funds used when
purchasing the assets.

December 31, 2007 and 2008 Comment: NPA-Angola has revised its fixed asset register to indicate
which donor funds were used to purchase the fixed assets. We noted the register continues to include
items for which the donor is unknown; however, all additions to the list include donor identification.

December 31, 2009 Status: Based upon our 2009 audit work, the current fixed asset ledger is current
and up-to-date.

                              Submission of Required Financial Reports

December 31, 2005 Comment: Our audit testwork disclosed that the required U.S. Government financial
forms were not submitted with quarterly financial information (one report covered five months and one
report covered two months). In addition, we noted that NPA-Angola did not have documented the dates
on which the reports were submitted. Accordingly, we recommend that all required financial reports be
submitted for only quarterly periods (those ending on the last day of the month of March, June,
September and December) and that NPA-Angola maintain documentation which supports the date the
reports were submitted.

Our audit also revealed that a final inventory of equipment list was not submitted to the U.S. Government
within 30 days after the completion of the audit as stipulated in the grant agreement. We recommend that
NPA-Angola compile a list of equipment purchased with U.S. Government funds and submit the list as
soon as possible.

In addition, for all future U.S. Government grants, we recommend that Norwegian People’s Aid identify all
required financial and programmatic filings as detailed in the grant agreements and maintain a calendar
which will ensure that the filings are completed in a timely manner.

December 31, 2006 Comment: Our audit testwork disclosed two required financial reports that were not
submitted in a timely manner. We continue to recommend that all required financial reports be submitted
within the required time of 30 days after the quarter end.

In addition, we continue to recommend that a final inventory of equipment list be submitted to the U.S.
Government within 30 days after the completion of the grant.

December 31, 2007 and 2008 Comment: We noted financial reports continue to be submitted late for
2007 and 2008.

December 31, 2009 Status: NPA has addressed this issue and we did not note any instances of non-
compliance with respect to the submission of required financial reports.




                                                                                                    IV-13
                                     Conflict-of-Interest Statements

December 31, 2007 Comment and 2008 Status: Our audits disclosed that employees at the NPA-
Angola office do not complete conflict-of-interest statements. We believe that best practices within the
International NGO community places great emphasis on the completion of annual conflict-of-interest
statements by all employees. Accordingly, we recommend that all employees at the NPA-Angola office
complete conflict-of-interest statements. In addition, due to the fact that relationships change over time,
we believe that all employees should complete conflict-of-interest statements on an annual basis. We
also recommend that the Human Resource (HR) Director summarize all conflicts, if any, and distribute the
list to those personnel involved in either the procurement or payment for goods and services.

December 31, 2009 Status: There was no action taken with respect to our comment during 2009.
Accordingly, we continue to recommend that conflict-of-interest statements be completed by all
employees on an annual basis.

Management Response: We agree with the auditors comment and the Headquarters Office (HO) has
issued new guidelines and templates in respect of conflict of interest which will be implemented as soon
as possible. All new employees will sign the conflict of interest statement and present employees at
renewal of contracts. HO is entering into a program of training within this area and other related issues
and will ensure compliance by end of 2012.

                                            Request of Funds

December 31, 2007 Comment and 2008 Comment: NPA-Angola does not prepare a formal request for
funds to be transferred from the home office to Angola. We recommend considering the preparation of a
formal request and documentation to support this request.

December 31, 2009 Status: We continued to note that NPA-Angola did not prepare formal requests for
funds during 2009. Accordingly, we continue to recommend such formal requests be prepared to properly
document the funds being transferred from HO.

Management Response: We agree with the comment and will alter our working practices to comply with
the request

                  Documentation of Clearing and Handling Costs at Port in Luanda

December 31, 2007 and 2008 Comment: NPA-Angola paid clearing and handling costs ($17,229 in
2007 and $5,537 in 2008) to certain vendors for equipment, supplies and replacement parts for vehicles.
Such costs were necessary in order to release the equipment, supplies and replacement parts from the
secured port. Our audit work revealed that the supporting documentation for these payments was not
consistently linked to specific purchases. We recommend that the payment of such clearing and handling
costs clearly specify the equipment, supplies or replacement parts for which the payments are intended.

December 31, 2009 Status: Our audit work did not reveal any instances of non-compliance with respect
to clearing and handling costs.

                                          Whistleblower Policy

December 31, 2007 and 2008 Comment: NPA-Angola does not have a clearly documented
whistleblower policy that is disseminated to staff. We recommend NPA-Angola develop and train staff on
this policy.

December 31, 2009 Status: There was no action taken during 2009, however, management has drafted
a comprehensive policy and it is expected to be disseminated to all staff in 2011.

Management Response: Management agrees, and our expectation is to issue the policy to all staff in the
second half of the 2011 fiscal year.


                                                                                                     IV-14
                                                 (LAOS)
                                     Conflict-of-Interest Statements

December 31, 2009 Comment: At the present time, employees at the NPA-Laos office do not complete
conflict-of-interest statements. We believe that best practices within the International NGO community
places great emphasis on the completion of annual conflict-of-interest statements by all employees.

Criteria: 22 CFR 226 Subpart C Section 21 "Standards for Financial Management Systems" requires
recipients of Federal funds to establish financial management systems that will ensure effective control
over and accountability for all funds, property and other assets.

Questioned Costs: None noted.

Context, Effect and Cause: The purposes of completing conflict-of-interest statements are to ensure the
objectivity and integrity of the work of NPA and its staff members. An effective conflict-of-interest policy
helps ensure NPA’s compliance with federal and best practices relating to conflicts of interest.

Recommendation: We recommend that all employees at the NPA-Laos office complete conflict-of-
interest statements. In addition, due to the fact that relationships change over time, we believe that all
employees should complete conflict-of-interest statements on an annual basis. We also recommend that
the Human Resource (HR) Director summarize all conflicts, if any, and distribute the list to those
personnel involved in either the procurement or payment for goods and services.

Management Response: We agree with the auditors comment and the Headquarters Office (HO) has
issued new guidelines and templates in respect of conflict of interest which will be implemented as soon
as possible. All new employees will sign the conflict of interest statement and present employees at
renewal of contracts. HO is entering into a program of training within this area and other related issues
and will ensure compliance by end of 2012.

                                  Timely Remittance of Tax Payments

December 31, 2009 Comment: The 2009 statutory audit conducted by an independent audit firm
revealed that during 2009, the NPA-Laos office did not remit the monthly tax payments in a timely manner
(in compliance with Lao law).

Criteria: 22 CFR 226 Subpart C Section 21 "Standards for Financial Management Systems" requires
recipients of Federal funds to establish financial management systems that will ensure effective control
over and accountability for all funds, property and other assets.

Questioned Costs: None noted.

Context, Effect and Cause Lack of critical internal controls increase risk associated with financial
management, and the potential for the misappropriation of funds.

Recommendation: Based upon our discussions with management of the NPA-Laos office we understand
that the tax payments have been made on a timely basis during the 2011 fiscal year, however, we
recommend that management of NPA-Laos implement policies and procedures which would ensure that
the finance department has remitted the monthly tax payments by the required due dates.

Management Response: During fiscal 2011, NPA-Laos has remitted withheld tax to the revenue
authorities on a timely basis and will continue to do so.




                                                                                                      IV-15
                                               (GEORGIA)
                                         Travel Documentation

December 31, 2009 Comment: Our audit revealed instances where documentation to support the travel
expenses (i.e. boarding passes or used plane tickets) was missing.

Criteria: 22 CFR 226 Subpart C Section 21 "Standards for Financial Management Systems" requires
recipients of Federal funds to establish financial management systems that will ensure effective control
over and accountability for all funds, property and other assets.

Questioned Costs: None noted

Context, Effect and Cause Lack of critical internal controls increase risk associated with financial
management, and the potential for the misappropriation of funds.

Recommendation: We strongly recommend that all employees of NPA-Georgia be reminded of the
importance of providing documentation to support the actual travel costs at the conclusion of their travel.

Management Response: NPA endeavors at all times to comply with the guidelines in respect of
documented travel, but unfortunately, we have had instances on non-compliance by not having adequate
supporting documents. It is the responsibility of the line manager and the accounting staff to ensure
adequate documentation is received and accountancy staff has been told not to pay the expense without
the proper documentation.

While we have seen great improvements, there are continuing issues which need to be addressed; the
latest audit showing instances of boarding passes or ticket stubs missing from the supporting
documentation, which will be rectified in the fiscal 2011. Please note that the issue stems mainly from the
issuance of electronic air tickets.

                                     Conflict-of-Interest Statements

December 31, 2009 Comment: At the present time, employees at the NPA-Georgia office do not
complete conflict-of-interest statements. We believe that best practices within the International NGO
community places great emphasis on the completion of annual conflict-of-interest statements by all
employees.

Criteria: 22 CFR 226 Subpart C Section 21 "Standards for Financial Management Systems" requires
recipients of Federal funds to establish financial management systems that will ensure effective control
over and accountability for all funds, property and other assets.

Questioned Costs: None noted

Context, Effect and Cause: The purposes of completing conflict-of-interest statements are to ensure the
objectivity and integrity of the work of NPA and its staff members. An effective conflict-of-interest policy
helps ensure NPA’s compliance with federal and best practices relating to conflicts of interest.

Recommendation: We recommend that all employees at the NPA-Georgia offices complete conflict-of-
interest statements. In addition, due to the fact that relationships change over time, we believe that all
employees should complete conflict-of-interest statements on an annual basis. We also recommend that
the Human Resource (HR) Director summarize all conflicts, if any, and distribute the list to those
personnel involved in either the procurement or payment for goods and services.

Management Response: We agree with the auditors comment and the Headquarters Office (HO) has
issued new guidelines and templates in respect of conflict of interest which will be implemented as soon
as possible. All new employees will sign the conflict of interest statement and present employees at
renewal of contracts. HO is entering into a program of training within this area and other related issues
and will ensure compliance by end of 2012.


                                                                                                      IV-16
         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




November 16, 2011




                                                                                                   IV-17
             COST-SHARING SCHEDULE

    NORWEGIAN PEOPLE’S AID
 UNITED STATES GOVERNMENT PROGRAMS

FOR THE YEAR ENDED DECEMBER 31, 2009




                                  V-1
                                   NORWEGIAN PEOPLE’S AID



                                            CONTENTS



                                                                          PAGE NO.




INDEPENDENT AUDITORS’ REVIEW REPORT                                           V-3 



EXHIBIT A - Cost-Sharing Schedule, for the Year Ended December 31, 2009       V-4 



NOTE TO COST-SHARING SCHEDULE                                                 V-5






                                                                                V-2
                            GELMAN, ROSENBERG & FREEDMAN
                                CERTIFIED PUBLIC ACCOUNTANTS



                              INDEPENDENT AUDITORS' REVIEW REPORT 

                                 ON THE COST-SHARING SCHEDULE 



To the Board of Directors
Norwegian People’s Aid
Oslo, Norway

         We have reviewed the accompanying cost-sharing schedule of Norwegian People’s Aid (NPA) for
the year ended December 31, 2009. Our review was conducted in accordance with standards established
by the American Institute of Certified Public Accountants (AICPA). The purpose of our review was to
determine if the cost-sharing schedule is fairly presented in accordance with the basis of accounting
described in the accompanying Note to Cost-Sharing Schedule and to determine if the cost-sharing
contributions were provided in accordance with the terms of the agreement. We also considered NPA’s
internal control related to the provision of and accounting for cost-sharing contributions.

         A review consists principally of inquiries of recipient personnel and analytical procedures applied to
financial data. It is substantially more limited in scope than an examination, the objective of which is to
express an opinion on the cost-sharing schedule. Accordingly, we do not express such an opinion.

        Based on our review, nothing came to our attention that caused us to believe that NPA did not fairly
present the cost-sharing schedule, in all material respects, in accordance with the basis of accounting used
to prepare the cost-sharing schedule. Furthermore, nothing came to our attention that causes us to believe
that NPA has not provided and accounted for cost-sharing contributions, in all material respects, in
accordance with the terms of agreement.

                                  _________________________________

         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




November 16, 2011




                    4550 MONTGOMERY AVENUE, SUITE 650 NORTH, BETHESDA, MARYLAND 20814
                           (301) 951-9090 • FAX (301) 951-3570 • WWW.GRFCPA.COM



                 MEMBER OF CPAMERICA INTERNATIONAL, AN AFFILIATE OF HORWATH INTERNATIONAL
    MEMBER OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS’ PRIVATE COMPANIES PRACTICE SECTION

                                                                                                           V-3
                                                                                            EXHIBIT A



                                   NORWEGIAN PEOPLE’S AID



                                 COST-SHARING SCHEDULE 

                           FOR THE YEAR ENDED DECEMBER 31, 2009





                                                   2009
                                    Actual    Ineligible Unsupported   Actual     Budget     Variance

CASH: USAID # FFP-A-00-04-00021-00 $556,643     $ -         $-         $556,643 $4,280,422 $(3,723,779)




                           See accompanying note to cost-sharing schedule.                         V-4
                                     NORWEGIAN PEOPLE’S AID



                                NOTE TO COST-SHARING SCHEDULE 

                                       DECEMBER 31, 2009





1.   BASIS OF PRESENTATION

     The accompanying cost-sharing schedule has been prepared on the accrual basis of accounting, and
     presents only the transactions of Norwegian People’s Aid’s cost-sharing grants applicable to the
     requirements of certain United States Agency for International Development awards. Accordingly, the
     cost-sharing schedule is not intended to present fairly all transactions of Norwegian People’s Aid as a
     whole.




                                                                                                        V-5
    NORWEGIAN PEOPLE’S AID
 UNITED STATES GOVERNMENT PROGRAMS

                          REPORT ON
           INDIRECT RATE CALCULATION

FOR THE YEAR ENDED DECEMBER 31, 2009




                                  VI-1
                                     NORWEGIAN PEOPLE’S AID





                                              CONTENTS 




                                                                         PAGE NO.



INDEPENDENT AUDITORS' REPORT                                               VI-3


EXHIBIT A - Statement of Indirect Rate Calculation, for the Year Ended
            December 31, 2009                                              VI-4


NOTES TO STATEMENT OF INDIRECT RATE CALCULATION                            VI-5




                                                                              VI-2
                               KPMG AS                                                                     Telephone     +4704063
                               P.O. Box 7000 Majorstuen                                                    Fa x          +4722609601
                               S0rkeda lsveien 6                                                           Internet      www.kprng.no
                               N-0306 Oslo                                                                 Enterprise    935 174627MVA




Report on Schedule ofComputation ofIndirect Cost Rate



The Board of Directors
Norwegian People's Aid
P.O.Box 8844 Youngstorget
N-0028 Oslo
Norway




Our audit of the financial statements of Norwegian People's Aid for the year ended 31 December
2009 was performed for the purpose of forming an opinion on the basic financial statements
taken as a whole. The attached schedule of computation of indirect cost rate for 2009 is presented
for the purpose of additional analysis and is not a required part of the basic financial statements.
Such information has been subjected to the auditing procedures applied in the audit of the basic
financial statements and, in our opinion, is fairly stated in all material respects in relation to the
basic financial statements taken as whole.



Oslo, 7 July 2011
KPMGAS




                                                                                                           Offices in:

                                                                                                           Oslo          Haugesund      Sandefjord
                                                                                                           Bode          Kr,sliansand   Sandn essjean
                                                                                                           Alta          Larvjk         Stavanger
                                                                                                           Alandal       lilleharrmer   Stord
                               KPM G AS is a member firm of the KPMG network of independent member         Bergen        Mo i Rana      Troms0
                               firms affiliated w ith KPMG International, a SWISS cooperative              Etverum       M olda         Trondhelm
                                                                                                           Finnsnes      Narvik         T~nsbe (g
                               Statsauto r~e rte   revisorer - me.dlemmer all Den norske Revisorforenlng   Hamar         Amos           A1e sun d
                                                                                                                                                                          •   Norwegian People's Aid
                                                                                                                                                                          ~
                                                                                              Norsk Folkehjelp


              All numbers are in NOK                                                                                      Schedule of computation of indirect cost rate

                                                            (b) (4)

     Note     Description

              Bad debt expence
              Depreciation
              Employee moral, health and welfare
    Note 1    Entertainment
              Equipment rental
              Equipment! capex - non depreciation
              Fringe benefrts (Employee benefits)
              Fund raising
              Insurance
              Materials & supplies
              Occupancy & cleaning
              Office supplies
              Postage, shipping & transport
              Printing & duplicating
              Professional expences
              Recruitment
              Repairs & maintenance
              Salaries & wages
              Sub contractors
              Telephone
              Training & education
              Travel
              Miscellaneous


                                     Total applicable Nicra cost
                                                                                                           (b) (4)



     Note 2    Redundant costs not applicable to Nicra                                - -
                                                                                                              (b) (4)
     Note 3    Exclution of USAID Grants with no NICRA allocation                      "",...-
               Total cost transparant to the Year End                                _
              ~S~t~~~e~m~e~n~t______________________________________________________                         (b) (4)



                                                                                                                        (b) (4)                                                (b) (4)
                                                                   Indirect Cost
                                                                   Direct cost base




                                                                   Oslo, the 6. of July 2011, GFO Heidi Lombnes


Nicra NOK                                                                                                                                                                            NIGRA model 2009 final audit July 2011
                                                                                                                      ~ Norwegian People's Aid 

                                                                                                                        ~~



NOTES TO THE NICRA MODEL 2009

Note 1: Entertainment 

Entertainment includes costs related to serving of alcohol and is categorised as not allowable in complience with circular no. A 122. 


Note 2: Redundant costs not applicable to Nicra 

In order to achieve performance management targets, NP A allocates costs at project number level in order to evaluate the performance of each project, external office etc. 


As a consequence, head office overhead are calulated and booked as a cost at for instance an external office, while the corresponding amount is booked as an income at the head 

office.There is no net effect of this booking as income and costs are balancing, however, both total costs and total income willl increase. 


As these redundant costs/incomes has not been eliminated in the annual accounts, the costs connected to will have to be separated and deducted as the corresponding income is not 

been included in the costs pool. 


Note 3: Exclution of United Stated Government Grants with indirect cost allocation. 

NPA has been awarded and provided services under several grant agreements with the United States Government for which no indirect cost recovery is provided on activities. 

Accordingly, all direct activitiy cost incurred for those programs have excluded from the direct cost in the accompanyinf Statment of Indirect Rate Calculation. 

